<html>
<title> - THE TRUMP ADMINISTRATION'S CHILD SEPARATION POLICY: SUBSTANTIATED ALLEGATIONS OF MISTREATMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       THE TRUMP ADMINISTRATION'S
                        CHILD SEPARATION POLICY:
                       SUBSTANTIATED ALLEGATIONS
                            OF MISTREATMENT

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2019

                               __________

                           Serial No. 116-46

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-315 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                        
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                  Russ Anello, Chief Oversight Counsel
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2019....................................     1

                               Witnesses

Written opening statements and witnesses' written statements are 
  available at the U.S. House of Representatives Repository: 
  https://docs.house.gov.

Panel 1

The Honorable Andy Biggs (R-AZ)
    Oral Statement...............................................     6
The Honorable Michael Cloud (R-TX)
    Oral Statement...............................................     8
The Honorable Debbie Lesko (R-AZ), Member of Congress
    Oral Statement...............................................    10
The Honorable Chip Roy (R-Texas), Member of Congress
    Oral Statement...............................................    12
The Honorable Veronica Escobar (D-TX), Member of Congress
    Oral Statement...............................................    14
The Honorable Alexandria Ocasio-Cortez (D-NY), Member of Congress
    Oral Statement...............................................    15
The Honorable Rashida Tlaib (D-MI), Member of Congress
    Oral Statement...............................................    18
The Honorable Ayanna Pressley (D-MA), Member of Congress
    Oral Statement...............................................    20

Panel 2

Ms. Jennifer L. Costello, Acting Inspector General, Department of 
  Homeland Security
    Oral Statement...............................................    22
Ms. Ann Maxwell, Asst.Inspector General for Evaluation and 
  Inspections, U.S. Department of Health and Human Services
    Oral Statement...............................................    23
Ms. Elora Mukherjee, Jerome L. Greene Clinical Professor of Law, 
  Columbia Law School
    Oral Statement...............................................    25
Ms. Jennifer Nagda, Policy Director, Young Center for Immigrant 
  Children's Rights
    Oral Statement...............................................    27
Thomas D. Homan, Former Acting Director, U.S. Immigration and 
  Customs Enforcement
    Oral Statement...............................................    29
                           INDEX OF DOCUMENTS

                                 ------                                
The documents listed below are available at: https://
  docs.house.gov.

  * ``Homestead isn't just for kids at the border, it's for kids 
  living in the U.S. their whole lives,'' article, Miami Herald, 
  Monique Madan; submited by Rep. Kelly.

  * Statutory Definition of Unaccompanied Minor; submitted by 
  Rep. Kelly.

  * Letter from Anti-Defamation League; submitted by Chairman 
  Cummings.

  * Recommendations from Kids in Need of Defense; submitted by 
  Chairman Cummings.

  * Statement from the World Church Service; submitted by 
  Chairman Cummings.

  * Statement from the Center for Victims of Torture; submitted 
  by Chairman Cummings.

  * Letter from Zero to Three; submitted by Chairman Cummings.

  * Letter with submission of photos of the Yuma Detention 
  Center; submitted by Rep. Gosar.

  * U.S. Department of Homeland Security Memo; submitted by Rep. 
  Ocasio-Cortez.

 
                       THE TRUMP ADMINISTRATION'S
                        CHILD SEPARATION POLICY:
                       SUBSTANTIATED ALLEGATIONS
                            OF MISTREATMENT

                              ----------                              


                         Friday, July 12, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2154, Rayburn House Office Building, Hon. Elijah Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Norton, Clay, Lynch, 
Cooper, Connolly, Krishnamoorthi, Raskin, Rouda, Hill, 
Wasserman Schultz, Sarbanes, Welch, Speier, Kelly, DeSaulnier, 
Khanna, Gomez, Ocasio-Cortez, Pressley, Tlaib, Jordan, Foxx, 
Massie, Meadows, Hice, Comer, Cloud, Gibbs, Roy, Green, 
Armstrong, Steube, and Keller.
    Also present: Representatives Garcia of Illinois, Gaetz, 
and Lawrence.
    Chairman Cummings. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any time.
    This full committee hearing is convening regarding the 
administration's child separation policy and substantiated 
allegations of mistreatment.
    I also wanted to briefly address the spectators in the 
hearing room today. We welcome you and respect your right to be 
here. We also ask, in turn, for your respect as we proceed with 
the business of the committee today.
    It is the intention of this committee to proceed with this 
hearing without any disruptions. Any disruption of this 
committee will result in the United States Capitol Police 
restoring order and that protesters will be removed.
    If a disruption occurs, a Capitol Police officer will go to 
the individual, instruct that they cease the demonstrations. If 
the individual does cease, no action will be taken. However, if 
the person does not cease or begins demonstrating after the 
initial warning by the officer, the individual will be removed 
from the hearing room.
    We are grateful for your presence here today and your 
cooperation.
    I would also remind all Members to avoid engaging in 
adverse personal references.
    I now recognize myself for five minutes to give an opening 
statement.
    Today we examine the Trump administration's inhumane policy 
of separating children from their parents at the southern 
border.
    I use the word ``inhumane'' for a reason. Separating 
children from their mothers and fathers causes damage that may 
endure for a lifetime. Let me let that sink in. In other words, 
until they die.
    The Trump administration adopted this child separation 
policy intentionally, purposefully, as a tactic to deter people 
from coming to the United States and seeking asylum.
    You ask the question: How do you know this? Well, let me 
answer.
    On March 7, 2017, the Secretary of Homeland Security, 
General John Kelly, was asked whether the administration was 
going to, and I quote, ``separate the children from their moms 
and dads.'' He said, quote, ``Yes,'' he said, to, quote, 
``deter,'' end of quote, additional movement across the border.
    Later, when he became the White House Chief of Staff, 
General Kelly confirmed, quote, ``It could be a tough 
deterrent--would be a tough deterrent,'' end of quote.
    Similarly, when Attorney General Jeff Sessions was asked if 
separating children was intended as a deterrent, he said, 
quote, ``Yes, hopefully people will get the message.''
    As many of you know, this is an issue I care deeply about. 
Last year, while Democrats were in the minority, I begged the 
Republican leaders of this committee to take action. And when I 
say beg, I mean beg. I didn't ask. Asking was too cheap. But 
they refused.
    I wrote letters seeking information about these children. I 
spoke up at completely unrelated hearings to warn about the 
plight of these children. But I was ignored.
    One Republican, Representative Mark Meadows, agreed to join 
me in sending a letter seeking documents. I thank him for that 
and for his cooperation. But the administration ignored our 
letter, and we never got a single page. Not a single word. Not 
a single syllable. I'm sorry to say the Republicans were fine 
with that during the last Congress.
    Well, that was their watch, and now this is our watch. And 
when I say ``our watch,'' I'm not just talking about Democrats. 
I'm talking about all of our watch.
    And so earlier this year we issued subpoenas to the 
Departments of Justice, Homeland Security, and Health and Human 
Services, and now we have finally begun to get documents. We've 
just begun to get them.
    Based on these documents, the committee is releasing a 
staff report today that summarizes this preliminary 
information. To be clear, the information we have received is 
not complete. We're still trying to get information. But even 
with this limited data, we can draw a few key findings.
    First, the administration's child separations were more 
harmful, traumatic, and chaotic than previously known. At least 
18 infants and toddlers under two years old were taken away 
from their parents at the border and kept apart for up to six 
months. Something's wrong with that picture.
    At least 241 separated children were kept in Border Patrol 
facilities longer than the 72 hours permitted by law. And many 
separated children were kept in government custody far longer 
than previously known, for more than a year.
    Second, the Trump administration has not been candid with 
the American people about its purpose in separating children. 
The administration claimed that separating children was 
necessary to prosecute parents, but the documents describe 
parents who were never sent to Federal criminal custody.
    Other parents were briefly taken into custody but then 
returned, likely because prosecutors declined to prosecute or 
they were sentenced to time served. That did not matter, 
however, because their children were taken away anyway.
    In some cases, the documents show that parents were 
returned to the same facilities they left just hours before, 
but their children were gone. Imagine that horror. Imagine the 
horror of a parent coming back hours later and suddenly their 
children, gone.
    Third, the nightmare of child separation continues. 
Hundreds of additional children have been separated from their 
parents since a court ordered an end to the administration's, 
quote, ``zero tolerance,'' unquote, policy more than a year 
ago. At least 30 children separated under that policy remain 
separated today, despite the court's order to reunite them with 
their families or place them with sponsors.
    And so, overall, the evidence shows that the 
administration's policies are causing the problems at the 
border, not helping to resolve them. The administration is 
detaining thousands of people who do not need to be detained 
and are not required to be detained.
    The policies are contributing to massive overcrowding, 
which is aggravating conditions, draining supplies, endangering 
the health and safety of both detainees and government 
personnel.
    And so I am looking forward to our witnesses today, and 
today my hope is that we can agree on several basic points. 
Anyone in the custody of our government, especially a child, 
must be treated humanely and with respect. Children should not 
be separated from their mothers or fathers unless there is a 
true need for it. And our government must meticulously track 
both children and their parents so they can be reunited or 
placed with sponsors as quickly as possible.
    And to the members of the committee, and our witnesses, I 
hope that we all, as we go through this hearing, will ask one 
basic question. My favorite saying is: Our children are the 
living messengers we send to a future we will never see. And I 
ask you to ask us, of ourselves, the question: How are we 
sending these children into their future? How are we sending 
them? And another question: Would you allow this for your own 
child? Would you allow it?
    And so this is, again, this is our watch, and I'm looking 
forward to us doing everything in our power to make sure that 
we are living up to those values as a Nation.
    Now, there will be discussions of things that may have 
happened in the past. This is our watch right now. These kids 
are suffering right now.
    And with that, I yield to the distinguished ranking member, 
Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    What we're going to hear from Democrats this morning is 
astonishing, will be truly astonishing. For months they 
declared there wasn't even a crisis on the border. Senator 
Warren said: ``A fake crisis at the border is fear-mongering of 
the worst kind, and we're not falling for it.''
    But weeks later, Democrats sure have changed their tune. 
The chairman just recently said Congress cannot ignore the 
humanitarian crisis at the border.
    For years now, Republicans have been warning about the 
crisis and working hard to find solutions, and all the while 
Democrats have denied there was even a problem.
    This is not about politics. It's always been about 
preserving the integrity of our border and preventing the 
humanitarian crisis that we are all now witnessing.
    Democrats are in charge here. They set the agenda. The 
chairman could have had this hearing on the border crisis in 
January. He could have had one in February or March or April. 
Instead, prioritized political hearings, like the hearing--
well, like the hearing we first had, Michael Cohen, months and 
months ago.
    Think about this. The President made his emergency 
supplemental request only two days after that hearing. We knew 
even then that it was urgent. Instead of giving a platform to a 
convicted felon, we could have come here to address the border 
crisis.
    Only now the situation has reached the point that Democrats 
cannot ignore it and finally decided to acknowledge that there 
is, in fact, a real crisis on the border.
    After months of the problem being pointed out and urgent 
calls for more funding, it wasn't until just before the July 
Fourth recess that the House Democrats finally agreed, after 
waiting eight weeks, finally agreed for the path to $4.6 
billion supplemental emergency funding bill to provide some of 
the resources needed at the border. And despite the size and 
scope of the crisis, even this funding bill was not supported 
by many of the Democrats, including some testifying today.
    Once again, they would rather play politics with the border 
than work on solutions. They have now gone from denying that 
there is a crisis to accusing those working to stop it, our 
border agents, of actually creating a culture of cruelty, as 
some have said. Just yesterday the chairman of the House 
Judiciary Committee gratuitously and erroneously accused our 
Border Patrol agents of committing negligent homicide. I was in 
the hearing when he said it.
    The reality is that our border agents are working 
tirelessly on the crisis, which they did not create, and they 
are lacking funding and resources from the very Democrats who 
are attacking them. Can't vote against funding for a crisis.
    And then, Fiscal Year 2019, more than 688,000 illegal 
aliens, including nearly 133,000 in May 2019 alone, were 
apprehended between ports of entry along the southwest border, 
an increase of 80,000 since October 2018.
    And while historically most immigrants were single adult 
males, 72 percent of all border enforcement actions in the last 
month were directed to unaccompanied alien children and family 
units.
    Fabricating stories of cruelty and besmirching the 
hardworking civil servants who are protecting the border and 
providing humanitarian assistance does nothing to help solve 
the problem. Putting a Band-Aid over the border crisis, like we 
did two weeks ago, does not fix the root causes.
    If Democrats are serious about solving the border crisis, 
then let's address the Flores settlement agreement, let's 
address asylum loopholes and the other statutory and judicial 
constraints that incentivize aliens to make a dangerous journey 
to the United States.
    Most of all, they must stop obstructing the border security 
wall. This is one of the greatest challenges of our time, and 
as we all know, it's getting worse by the day. I hope the 
Democrats will stop their obsession with attacking the 
President and will actually work collaboratively to fix this 
crisis.
    And, Mr. Chairman, I look forward to hearing from our 
witnesses. I appreciate the fact that even though initially you 
were going to have just the Democrats, you allowed the 
Republican witnesses from border states to participate in the 
first panel as well.
    And with that, I yield back.
    Chairman Cummings. Thank you very much.
    Let me very quickly preliminarily explain to the committee 
how this came about. Ms. Tlaib, Ms. Ocasio-Cortez, and Ms. 
Pressley contacted me over two weeks ago and they made it clear 
that they wanted to go down to the border to observe as a 
committee, more of a committee assignment. I told them, go. And 
they decided they wanted to go and see for themselves.
    And I thank you all for doing that.
    Ms. Escobar helped make the arrangements, and it was her 
district. But I wanted them to come back to the committee and 
tell us what they observed.
    I welcome anybody who has gone down there and seen whatever 
you may have seen so that the Congress, I think, can be 
sensitive to what's going on and so that we can do something 
about it.
    And so for this panel, we will not have, to the panel, we 
will not have questions, and we also won't have exchanges among 
the witnesses.
    Mr. Meadows. Mr. Chairman, point of information, if I 
might?
    Chairman Cummings. Yes.
    Mr. Meadows. Yes, you indicated they went down. So was this 
a codel from this committee? Because I was not invited or was 
not even aware they were doing it.
    Chairman Cummings. I'm going to say--I'm going to answer 
you briefly, and then we're going to move on to these 
witnesses.
    No, it was not a codel. They called me inquiring as to how 
it could be a codel, and I told them: You're going to have to 
go on your own MRA. Okay?
    Mr. Meadows. Yes, but I don't know that our own MRA 
qualifies to actually do that.
    Chairman Cummings. Well, whatever they--however they did 
it, they did it properly--am I right, ladies?--they did it 
properly and within ethical rules. Okay? All right. They took 
it upon themselves.
    We should applaud our Members, even the Republican Members, 
who have visited these facilities concerning their interests. 
Taking time from what would normally be their times in their 
districts and taking care of their families, they decided to go 
down there. Let's applaud them as opposed to----
    [Applause.]
    Chairman Cummings. No. I'm sorry. I'm sorry. I told you not 
to disrupt. I didn't mean it like that. But you get the 
picture.
    But anyway, let's move on.
    Ms. Speier. Mr. Chairman, will you yield for one----
    Chairman Cummings. I'll yield, yes.
    Ms. Speier. To Mr. Meadows, the appropriate procedure--and 
we're following that with a codel that we are taking this 
afternoon--is to get an invitation from the Member's district 
where you want to visit. And upon having that invitation, you 
normally have to wait two weeks in order to get the Border 
Patrol to accommodate you. And if they followed that, which I'm 
sure they did, that is how they were able to make that trip.
    I yield back.
    Chairman Cummings. I've got to move on. Thank you all.
    Now, to our Members, if you have pictures or exhibits, we 
are more than willing to see them. But we ask that you please 
use them only during your testimony and then take them down.
    You will each have five minutes. And we will be happy to 
include in the record any additional materials you would like 
to submit.
    For each of you, the committee would like to know which 
specific detention centers you visited, when you went there, 
and what you personally witnessed while you were there.
    What I am going to--and we have to keep in mind that we've 
got a vote coming up at around 11. So it's my hope that we'll 
get all of you in before the vote.
    But to the Members, to all Members, after the vote, I'm 
coming back here to hear from our other witnesses. We have a 
very important panel coming after this panel. And I will be 
here until midnight if I have to be, because I think it's just 
that urgent.
    And so I'm going to begin with our Republican 
Representatives.
    Representative Andy Biggs from Arizona, thank you very much 
for being with us.

STATEMENT OF THE HON. ANDY BIGGS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Biggs. Thank you, Chairman Cummings and Ranking Member 
Jordan, members of the committee. I thank you for allowing me 
to testify before you today.
    I represent the Fifth congressional District of Arizona, 
which is a suburb of Phoenix just about a hundred miles from 
the border. But I grew up in southern Arizona. I've traveled 
extensively in Mexico and been to our southern border many 
times, and I regularly visit the border today even.
    In the past few months I have visited a CBP holding 
facility in Yuma, an ICE facility in Arizona. That detention 
center is run by a private concern that is required to comply 
with Federal regulations. I've led two groups of Congressmen to 
the border and invited colleagues from across the aisle to come 
as well.
    When I led a group to the border a couple months ago, we 
were briefed by agents about the extent of human trafficking, 
and we learned about an 11-year-old girl that I'm going to call 
Maria today to protect her privacy. Agents learned that there 
was a human trafficking hub in South Carolina, moving directly 
from Yuma across to South Carolina. That's a long way to go.
    Working with DEA, ICE, and local law enforcement, agents 
located a small house that was the headquarters of a cartel 
affiliate. They were surprised to find Maria. They didn't know 
about her, or the two small boys that she was required to take 
care of by the cartel affiliate. They had been separated from 
their families when their parents allowed them to be taken by 
human trafficking cartels to create a fake family unit in order 
to get more favorable treatment when the adults they were 
placed with by the cartel traffickers crossed our border.
    Maria and the two little boys were intended to be taken 
back by human cartel smugglers to be used again to create a 
fake family unit.
    I asked how many similar trafficking rings existed in the 
United States and was told that there are hundreds all over the 
country. And this impacts tens of thousands of children who are 
given over to cartels and human traffickers by their parents to 
be used to facilitate human trafficking.
    I also think of Benito--again, I changed his name--he was a 
five-year-old little boy left in the desert by human 
traffickers. He was found by CBP agents and was given emergency 
life-saving treatment. I've watched videos of agents rescuing 
sick or dying individuals in the desert or drowning in the Rio 
Grande who were saved, at risk to the life and limb of the 
agents.
    Most of the time today by agents is no longer spent in 
securing the border, but is actually spent on humanitarian 
endeavors and actually trying to take care of children.
    Family separation for angel families like Steve Ronnebeck, 
whose son Grant was murdered by a multiple deportee, or Mary 
Ann Mendoza, whose son Brandon was killed by a multiple 
deportee, are two families permanently separated who live in my 
district.
    I visit regularly ports of entry and the vast open tracts 
between the ports. I speak to line agents, local law 
enforcement, residents on the border, and I visit facilities.
    When our group visited the holding facility in Yuma, 
designed to hold a maximum of 250 people for only up to 12 
hours for processing, I was shocked to see more than three 
times that many people there.
    CBP had made makeshift arrangements to try and meet the 
conditions. People were crammed in. They were out on the patio 
area. They were in the parking lot. They were given mats to 
sleep on.
    We came back and we put in special orders, we did various 
statements urging immediate help from our colleagues to the CBP 
and thousands of people crossing our border who were 
voluntarily surrendering themselves to the agents. We warned of 
the difficulties that would be exacerbated if immediately 
relief was not undertaken.
    Months ago, while many of my colleagues were claiming that 
the border situation was a manufactured crisis, we were urging 
immediate action because the circumstances were horrible. They 
were overcrowded. They were horrible. There was clean water. 
There still is clean water. There was food. There was sanitary 
supplies. There was bedding supplied. But it was rudimentary. 
We needed help then.
    And now to refer to these folks who are doing their best 
dealing with a horrible situation--at that time, remember, Yuma 
was transferring 130 people a day to overcrowded ICE 
facilities. They were releasing 120 a day into the community. 
But when you're catching or apprehending or people surrendering 
at the tune of 4,500, you don't have enough supplies. You don't 
have enough facilities.
    It is a crisis. It is real. And we do not get anywhere by 
blaming the people who are doing their best to help these 
people.
    We need to look in the mirror. We need to make the changes. 
We need to provide the funding necessary to get this done. 
Calling these Auschwitz-style concentration camps or indicating 
that these people that are trying to enforce the law are 
somehow Nazi-type war criminals, or yesterday we heard they 
were criminal child abusers, that doesn't help solve the 
problem. It's a real problem. We need to solve it. We can do 
it. We have to do it.
    Chairman Cummings. Thank you very much.
    Representative Cloud.

   STATEMENT OF THE HON. MICHAEL CLOUD, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Cloud. Thank you. Thank you, Mr. Chairman, Ranking 
Member. And thank you for the opportunity to share the story of 
those of us who live in border states and have experienced this 
humanitarian and criminal crisis for decades.
    First of all, I'd like to thank the men and women of the 
Border Patrol and Immigration and Customs Enforcement for their 
continued service to this Nation. Many of them are veterans who 
view this job as a way to continue their service to our great 
Nation. Many have served overseas to preserve our freedom on 
the front lines, and defending our borders at home they view as 
a way to continue their service back home.
    Many of them realize, the men and women serving, realize 
that protecting the homeland and defending our border by 
fighting back against the corrupting influence of cartels is 
just as important to the communities and families across this 
Nation as fighting overseas.
    Wednesday marked the one-year anniversary from when I was 
sworn into office. What I've learned in a year is that many 
Members of Congress would rather talk about a problem than 
actually fix it. Thankfully, the President has made this a 
priority, and it's past time for Congress to do the same.
    I cannot understand why we would allow this problem to 
continue when we know what would help to fix it: close the 
asylum loopholes cartels use to exploit people, fix the Flores 
settlement so that we can ensure families remain together, and 
many other situations or circumstances or solutions that have 
been presented before.
    Shortly after I was sworn in, I visited the Texas border, 
not for the first time, and I asked Border Patrol: What would 
be a win? And they told me: situational awareness. That was in 
August of last year, when 16,744 migrants were apprehended by 
the RGB sector. In June of this year, that number has nearly 
tripled. There were 43,197 apprehensions in that sector alone.
    Our current border facilities are not designed to handle 
these current numbers. Border Patrol and ICE are doing the best 
they can with extremely limited resources that we have given 
them. They understand they don't have the tools and resources 
they need to even begin thinking about mitigating the influence 
cartels have in our Nation because Border Patrol is undermanned 
and underfunded, and Congress has done nothing to help.
    During our visit just a few weeks ago, the phrase I heard 
over and over is: There is no end in sight.
    The southern part of Texas' 27th congressional District, 
the district I am proud to represent, is roughly two hours from 
the U.S.-Mexican border town of McAllen, Texas. If fixing this 
crisis had been left up to Texas, we would have done it several 
years ago.
    Widely recognized as the fatal funnel, two major 
interstates, U.S. 281 and U.S. 77, come up from Mexico and feed 
right through our district. Why is it called the fatal funnel? 
Time magazine ran a story in May 2015 titled, ``The Border 
Corridor of Death Along America's Second Border.'' Customs and 
Border Protection even warns on their website, if you're 
traveling on Highways U.S. 281 and U.S. 77, please be cautious 
of your surroundings as smuggling activity runs rampant.
    Or take the Houston HIDTA 2018 threat assessment that's 
filled with examples of drug and human smuggling conducted by 
the Gulf and Los Zetas cartels through the district and 
surrounding area. Or take the story of 19 migrants who were 
found dead in a back of a tractor trailer truck 10 minutes from 
my house in Victoria. They died in a tractor-trailer truck in 
the sweltering heat. Authorities found a five-year-old boy who 
had died in his father's arms.
    Deputy Chief Roy Boyd of the Victoria Country Sheriff's 
Office says that gangs are moving more and more into the slave 
trade now because of how profitable it is. While a kilo of 
cocaine or any drug can be sold once, human beings can be sold 
numerous times every day. Boyd says that these migrants are 
being sold into slavery, both sex slavery and labor.
    The RAND Corporation recently published a study that said: 
We found the revenues from smuggling migrants from El Salvador, 
Guatemala, and Honduras combined could have ranged from a total 
of about 200 million to a total of about 2.3 billion in 2017. 
Let's let that sink in when we consider the resources we're 
giving to our resources at the border.
    Congress is allowing these cartels to massively profit 
because we refuse to close off the avenues they are using to 
smuggle migrants.
    This is not just these gut-wrenching stories either. At the 
end of May, I, along with Representatives Grothman and Hice, 
went to the border. We were briefed by Border Patrol on who and 
what is coming across the border. We were joined by my friend 
Hector Garcia and the National Border Patrol Council on a ride-
along through the night to see how these fine men and women of 
the Border Patrol use the meager resources they have to 
prioritize life, provide for these migrants, and defend our 
country.
    We visited a ranch where we heard stories of those who live 
on the ranch are fearful for their own lives because of the 
number of the cartel members smuggling through their own 
property. They're afraid to walk their own land. The manager of 
that ranch said his wife cannot go on a walk or run around the 
property without the dog and a gun.
    Cartels cut chains and locks, bust through fences with 
their trucks, use private property to avoid stations. Somehow 
these are the stories that the media fails to report but sadly 
what's become normal for the people of south Texas.
    Let me leave you with this story I've shared before but 
it's worth sharing. I visited an unaccompanied minor facility. 
There were a number of young ladies there, about a couple 
hundred. I asked them about the care and what these young 
ladies had been through. They said about 40 percent of them had 
been sexually abused along their journey.
    This is the tragedy we've allowed to metastasize while many 
in Congress spent months claiming this was a fake, manufactured 
crisis. Real compassion would have been for us to do something 
about this and have the wisdom and foresight to avoid the 
situation that we've seen over the last couple of weeks instead 
of implementing policies that enable what the cartels are 
doing.
    Chairman Cummings. Thank you very much, Representative 
Cloud.
    Representative Lesko. And welcome to our committee.

    STATEMENT OF THE HON. DEBBIE LESKO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mrs. Lesko. Thank you and good morning. You know, I don't 
know if I should be jealous with all the pictures being taken 
over my colleagues or not.
    But it's a good morning. And, Chairman Cummings, Ranking 
Member Jordan, and Members of Congress, thank you for giving us 
this opportunity.
    You know, sometimes I feel, have you ever seen a movie 
where they have parallel universes, where you're in one world 
in this situation, you're in another world in this situation? 
Well, that's what I feel like we're in, quite honestly.
    In some of my Democrat colleagues' world they seem to think 
that all of a sudden, out of the blue, thousands of illegal 
immigrants showed up at the border, and they are just 
oblivious--oblivious--to the year-long calls by Republicans and 
some Democrats for years for immigration reform, knowing that 
our loose immigration laws are what's incentivizing people to 
come here and what's causing the crisis.
    In my world, what I believe is the real world, the crisis 
has been mounting for years. And people like me have sounded 
the alarm for years, over and over and over again, and tried to 
enact legislation to fix it. But, unfortunately, many of my 
Democratic colleagues have fought me over and over again at 
every turn.
    I'm from Arizona. I'm from a border state. I don't live in 
a state thousands of miles away. So we've been living this for 
many, many years. And I used to serve in the state senate and 
the state house. And I was a cosponsor, along with my 
colleague, Representative Biggs, on SB 1070, because we knew, 
we were there, we were on the ground, and we knew that the 
immigration laws were not being enforced, and we thought, okay, 
well, let's have the state try to enforce it.
    Well, we were fought at every turn by every of my Democrat 
colleagues there and the President. In my Democrat friends' 
world the crisis at the border, they say, was manufactured. We 
heard it for months. In January, Speaker Pelosi and Schumer 
said it was a manufactured crisis. House Democrat whip laughed 
when asked if there is a crisis at the border and said 
absolutely not.
    Thirty-eight freshman Democrats sent a letter to Senate 
Majority Leader McConnell requesting that Congress end this 
manufactured crisis. Democrat Homeland Security Committee 
chairman tweeted: The President has manufactured a humanitarian 
crisis.
    In my world, President Trump and Republicans have been 
sounding the alarm for years. I mean, my goodness, we're going 
to have over a million illegal immigrants that we apprehend. 
That's more than one congressional district a year. And the 
pounds, even in Yuma, Arizona, just recently, hundreds of 
pounds of meth.
    And last year, Republicans led two immigration bills that 
we thought were a compromise, where it gave DACA recipients 
legal status in one of the bills. Another of the bills, it gave 
DACA recipients a pathway to citizenship. But not one of my 
Democrat colleagues voted yes, not one single one.
    Unfortunately, in my Democrat colleagues' world, in 
Judiciary yesterday--I am a member, too--I heard over and over 
again how CBP are child abusers. And one member, one of my 
colleagues said: Oh, they're getting treated worse than 
prisoners of war. I mean, really?
    Let's get down to the business of solving the problem. And 
I encourage everyone to watch a video by Tucson Sector Border 
Chief Patrol Agent Roy Villareal. The video shows clearly that 
there are supplies in the detention centers.
    And this whole issue about drinking out of the toilet is 
wrong. No one drinks out of a toilet. No one is being asked to 
drink out of a toilet. There's a combined unit where at the top 
you have drinking water, and the Border Patrol Chief drank the 
water. They're not drinking out of toilets. So, please, 
American public, there is no one asking people to drink out of 
toilets.
    We really need to solve the root of this problem. We need 
to get to the base of it. And I call on my Democrat colleagues, 
we're all passionate about this issue, let's actually solve the 
root of the problem, work on legislation together, let's get 
this done.
    And I yield back. Thank you.
    Chairman Cummings. Thank you very much.
    Representative Roy.

 STATEMENT OF THE HON. CHIP ROY, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Roy. I thank the chairman. Thank you for holding this 
hearing and allowing us, giving us time to testify this 
morning.
    As many of you know, I represent Texas 21, Austin, San 
Antonio. The southwest edge of Texas 21 is about 95 miles from 
the border of Mexico. I've toured facilities multiple times in 
my career as a lawyer for the Senate Judiciary Committee, as a 
Federal prosecutor, as a staffer for Governor Perry, as a first 
assistant attorney general, and now as a Congressman. I've been 
to the border multiple times, and I didn't just come recently 
putting on a show in front of fences for the media. It's come 
over a career of trying to figure out how to secure the border 
and do our job.
    My chief of staff went to the border this last Saturday, 
down to Clint to go to the facility after hearing all of the 
horror stories. My chief of staff had a very different 
experience in terms of what he saw, in terms of the cleanliness 
of facilities, in terms of Border Patrol trying to do its job, 
trying to make sure that people are taken care of after a long, 
hard journey through Mexico, making sure they do have potable 
water, including having water containers right outside the very 
cells where we were told that they didn't have water to drink, 
having the toothpaste, the food, the diapers, the things that 
are necessary to take care of people after a long, hard 
journey, while this body has failed to secure the border and 
created the very magnet, the very magnet, that is causing these 
migrants to come through and be abused by cartels while this 
body cowardly sits in the corner doing nothing about it.
    The untold stories that are going on by cartels, these are 
the stories. At certain stations gangs boarded the trains and 
demanded a toll. The rate was a hundred dollars per station. 
They threatened us. They said they would hold us until we could 
call a relative to arrange to pay. If you couldn't pay, they 
would throw you off the roof. Johnny was separated from his 
family on a train, and it's unclear what happened to his wife 
and children.
    Just two weeks ago a 19-year-old woman fell from one of 
these trains in Tacotalpa, Mexico, killing her. The train 
stopped near the Tabasco state town and the woman hopped off to 
buy some cheese-stuffed rolls, and when the train crowded with 
migrants began to move again she hustled to clamor back aboard. 
But the train suddenly stopped, she lost her grip and fell 
beneath its wheels. It dragged her a hundred yards before 
jerking forward again in a thunder of shuttering steel.
    Coyotes take advantage of our system, leading women and 
children to the border, while along the journey one in three 
women are sexually assaulted.
    This is the reality of what's happening between the 
Northern Triangle and Texas. This is what is happening because 
we refuse to do our job.
    What about Border Patrol? Sergio Tinoco was born into 
poverty in south Texas as his mother remained in Mexico and he 
was forced to work hard labor on a farm to support himself. He 
served in our military for 10 years and then became a Border 
Patrol agent protecting the land in which he grew up in the Rio 
Grande Valley.
    He wanted this comment to be told, quote: The last thing 
this son of Mexican immigrants expected was to be compared to 
Nazis by America's elites for serving his Nation and protecting 
our dangerous border.
    He said: Our agents are just completely overwhelmed. They 
are exhausted. Not only are they exhausted out in the field, 
exhausted inside the stations, processing, they're exhausted 
with all of the rhetoric that's coming down through the media 
and this Congress. Our own congressional leaders are vilifying 
our agents. These are the people holding America's front line.
    Add to these thoughts--this is an article that Sergio 
Tinoco wrote that appeared July 5, 2019--add to these thoughts 
an exhausting 10-hour shift of seeing hundreds of illegal 
immigrants at the facility you work in and out in the field at 
temperatures over a hundred degrees. Add a countless amount of 
mothers and fathers telling the agent that their child is sick 
and needs attention. Add being in a facility that can only hold 
300 detainees, but is currently holding 1,200, all waiting to 
be processed and released because of the immigration loopholes 
that brought them here in the first place.
    More so, add having just rescued a mother and child from 
drowning in the Rio Grande, caring for an infant after being 
stung by a swarm of bees in the high brush at the area where 
they entered the country illegally. Add the memory of finding a 
decomposing dead individual who was left behind by the ruthless 
smuggler because of an injury or exhaustion.
    A Border Patrol agent should be going home at the end of 
shift to decompress and leave all these matters behind at the 
workplace. Those things will be waiting for the agent again 
tomorrow. There will be another daring rescue, another small 
caravan of over a thousand individuals to deal with and try to 
fit into an already overcrowded facility. There will be another 
set of individuals, or kids requiring medical attention, which 
the agents will tend to.
    But now, with comments such as these, the Border Patrol 
agent must go home and hear about how their families have also 
heard those comments depicting mom or dad as a murderer of kids 
and their parents, how mom or dad are running gas chambers to 
kill all the illegal immigrants.
    The fact is both parties have failed. The GOP all too often 
want to stand at the Rio Grande with a ``no trespassing'' sign 
while winking at immigrants and with a ``help wanted'' sign in 
the other. Meanwhile, my Democrat colleagues prefer to stand in 
front of chain link fences next to an empty parking lot while 
making up hyperbole for clicks, Twitter followers, and cynical 
politics.
    There is a path to fix this. Take out the cartels, 
recognize that they're terrorist organizations, fix our asylum 
laws to be welcoming but not tragically abused by cartels, end 
catch and release, and give ICE the resources to do their job.
    President Obama sent up a bill for $760 million for ICE. 
Why were we not funding ICE so that we have a place to be able 
to put people when they come through Border Patrol?
    It is time for action. This Texan is not going to sit by 
and watch his state and Texas communities get overrun and 
abused because the coward of the swamp sit idly by and 
cynically fail to do their job.
    Thank you.
    Chairman Cummings. Thank you very much.
    Ms. Escobar, Representative Escobar, let me say this before 
you go on. I want to thank you for working so closely with us 
to make this hearing happen, and I really appreciate you very 
much. Thank you. You may go forward.

  STATEMENT OF THE HON. VERONICA ESCOBAR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Escobar. Chairman Cummings, Ranking Member Jordan, 
members of the committee, thank you for calling this hearing 
and for the privilege of testifying before you today.
    I am proud to live not near but on the U.S.-Mexico border, 
in El Paso, Texas, a community that has long been safe and 
secure, a modern-day Ellis Island. For seven months, my office 
has facilitated delegation visits to El Paso, 10 so far and 
more to come, and I'm grateful for all of those who have been 
able to or will soon join us to bear witness to what is 
happening at the hands of the U.S. Government.
    There is no doubt that the increasing number of migrants at 
our southern border has presented a challenge. Unfortunately, 
in the last two years our country has failed to live up to our 
founding values when addressing that challenge.
    Before I focus on what our government is doing, let me tell 
you what my community is doing. For years, but especially in 
this last year, El Paso has stepped up, helping feed, shelter, 
and offer hospitality to thousands of migrant families released 
by DHS week after week. My community, with a fraction of the 
resources available to the Federal Government, has responded 
more strategically, thoughtfully, and compassionately than the 
Federal Government has.
    El Paso knows that this is not a matter of resources, but a 
matter of will. El Paso has had to stand up shelters on a 
moment's notice, transport hundreds of migrants daily, using 
only volunteers, and we've opened our wallets and our hearts to 
ensure that every one of those vulnerable souls has a clean, 
safe place to stay once out of custody. El Paso made the choice 
to employ compassion and good will.
    And then we have the choice that our government has made. 
Our government, at the hands of this administration, has 
exhibited an incompetence and cruelty that has created a human 
rights crisis in our own country.
    Under the Trump administration, border communities have 
borne witness to the deaths of at least six children in 
government custody since September.
    Family separation, a practice called illegal by the United 
Nations, one which, according to the American Academy of 
Pediatrics, inflicts deep life-long trauma, a policy so heinous 
that the sound of a weeping child secretly recorded in a 
detention facility moved even some of the most hardline anti-
immigrant Americans, El Paso was the testing ground for child 
separation, a policy that continues to this day.
    We've seen severe overcrowding in Border Patrol processing 
centers that is so inhumane that the DHS Office of the 
Inspector General described it as dangerous because it 
represents an immediate risk to agents and migrants alike. 
We've seen conditions that dehumanize migrants, stripping them 
of their dignity, sending good agents into states of 
despondency, giving cover to bad agents who abuse their 
authority.
    There's long-term detention in ICE facilities where in my 
district a group of men requesting asylum who had been detained 
for nearly a year became so desperate they went on a hunger 
strike. They were force fed and hydrated through tubes that 
were placed down their nose. Speaking through their pain and 
their bloodied tubes, they told me they would rather die in 
America than be sent back to India.
    We've seen migrant protection protocols. It's the 
administration's practice of sending legal asylum seekers into 
another country as they await their hearing, a violation of due 
process that puts vulnerable populations in danger. In one 
case, a woman had warned CBP about the danger she faced in 
Ciudad Juarez, was sent back to Mexico, where she was kidnapped 
and brutally gang raped.
    My district is ground zero for these atrocities, and 
because my office inquires about these cases in line with my 
oversight responsibilities, I have become a target.
    These policies have created the humanitarian crisis and a 
moral one. I commend colleagues who have worked to address 
these issues, from Congresswoman Lofgren focusing on the root 
causes, to Congressman Raul Ruiz, who's focused on medical 
standards for migrants in CBP custody.
    I, too, have legislation that will be coming up shortly, 
H.R. 2203, the Homeland Security Improvement Act, which would 
increase accountability and transparency at DHS so that these 
conditions, these deaths, these abuses, can be relegated to a 
dark moment in history.
    This is not about resources. And to prove it, one only 
needs to look at what El Paso, Texas, has done without any. 
This is about having the will to treat people with dignity. We 
have the power to change this. Do we have the will?
    Thank you.
    Chairman Cummings. Thank you very much.
    Ms. Ocasio-Cortez.

       STATEMENT OF THE HON. ALEXANDRIA OCASIO-CORTEZ, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK

    Ms. Ocasio-Cortez. Mr. Chair, I would like to be sworn in.
    Chairman Cummings. I'm sorry?
    Ms. Ocasio-Cortez. I would like to be sworn in.
    Chairman Cummings. Oh, all right. We usually don't require 
a swearing-in, but you want to be sworn in?
    Ms. Ocasio-Cortez. Yes.
    Chairman Cummings. All right. Okay. Stand up, please.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Ms. Ocasio-Cortez. I do.
    Chairman Cummings. You may be seated.
    Let the record reflect that Ms. Ocasio-Cortez answered in 
the affirmative.
    You may proceed.
    Ms. Ocasio-Cortez. Good morning, Chairman Cummings, Ranking 
Member Jordan, and distinguished members of this committee.
    When I was asked to testify today, I, frankly, didn't know 
where to begin after our visit to the border.
    Much has been made about the fact that we have said that 
this is a manufactured crisis. And in many ways, it is 
manufactured in that it is wholly unnecessary. It is 
unnecessary to separate children from their families. It is 
unnecessary to have a policy to detain innocent women and 
families that have harmed no person and are legally seeking 
asylum in the United States of America. It is unnecessary to 
have a policy that calls children unaccompanied when they 
arrive with older brothers, sisters, and grandparents, and 
treat them no differently than human traffickers.
    And in speaking of trafficking, it is completely 
unnecessary for this administration to choose to implement 
policies like metering and so-called ``remain in Mexico'' 
policies that dump innocent people in dangerous territories, 
that puts them right in the crosshairs of human traffickers, 
ripe for picking.
    This is a manufactured crisis because cruelty--because the 
cruelty is manufactured. This is a manufactured crisis because 
there is no need for us to do this. There's no need for us to 
overcrowd and to detain and underresource. There is no need for 
us to arrest innocent people and treat them no differently than 
criminals when they are pursuing their basic human rights.
    Much has been made about CBP agents in this hearing as well 
and that this is not their fault, and in some respects, in many 
respects, I agree, because it is a policy of dehumanization 
implemented by this executive administration, laid at the feet 
of Stephen Miller, that creates a tinderbox of violence and 
dehumanization where hurt people hurt people.
    I would like to seek unanimous consent to submit the 
records of the names of 17 women I met during my trip to the 
border.
    Chairman Cummings. Without objection.
    Ms. Ocasio-Cortez. I think one of the reasons and what has 
been spoken of is that there's two different universes, and it 
feels like we're speaking in two different worlds, and one of 
the reasons for that, I believe, is because when I and when we 
took our tour of the border, one of the first things that we 
were told is that we were not allowed to speak to the migrants, 
that we were not allowed to have contact with them, that we 
shouldn't, and this was given for reasons of, quote, ``their 
safety,'' or reasons for--or for the expediency of the tour.
    And after we entered and after we were asked to surrender 
our cell phones at the beginning of the tour, we went in and 
one of the CBP officers, after that morning, it being revealed 
by ProPublica--which I would also seek unanimous consent to 
submit to the record.
    Chairman Cummings. Without objection.
    Ms. Ocasio-Cortez. While it was revealed by ProPublica a 
secret Facebook group where CBP members were planning to harm, 
or encouraging harm, of myself and Congresswoman Escobar as 
well as mocking the deaths of migrant children.
    Into that environment, we walked into this facility. We 
were asked to surrender our phones and be guarded by the people 
without a guarantee that no one there was in that Facebook 
group. We went in and one of the officers attempted to sneak a 
photograph, a photograph of myself and other congressional 
Members, and at that point we asked to enter one of the cells.
    We were allowed to speak to the women, and these are the 
women that we spoke to. It's their handwriting. And while we 
are being asked to speak only to officers, we are not getting 
the accounts of migrants, of their treatment, of what they are 
experiencing.
    And so when these women tell me that they were put into a 
cell and that their sink was not working, and we tested the 
sink ourselves and the sink was not working, and they were told 
to drink out of the toilet bowl, I believed them. I believed 
these women. I believed the canker sores that I saw in their 
mouths because they were only allowed to be fed unnutritious 
food. I believed them when they said they were sleeping on 
concrete floors for two months. I believed them.
    And what was worse about this, Mr. Chairman, was the fact 
that there were American flags hanging all over these 
facilities, that children being separated from their parents, 
in front of an American flag, that women were being called 
these names under an American flag. We cannot allow for this.
    [Medical emergency in hearing room.]
    Chairman Cummings. Representative Green, who is a medical 
doctor, just told me she'll be okay.
    Thank you, Representative Green. I really appreciate it. 
It's good to have a doctor in the house. Amen.
    Miss, since I interrupted you, I'll give you 30--I am 
sorry. We'll give you a minute to wrap it up, please.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair, and I know my time 
was wrapping up at that time.
    And again, we have to make sure that--and over and over 
again, when we spoke to these folks, whether it was agents, 
whether it was HHS officials, oftentime they said the thing 
that we need most is not resources, we need policy change.
    So we need to change our metering policies. We need to 
change our detention policies. We need to change our policies 
on who we call unaccompanied. And that is one of the key areas, 
in addition to changing our policy on foreign affairs, on 
investment, on being an equal partner in Latin America and the 
Western Hemisphere.
    Thank you very much.
    Chairman Cummings. Thank you very much.
    Ms. Tlaib, again, I want to thank you for your phone call 
about two weeks ago when you wanted to pull together things to 
get down, go down to the border. Thank you very much. You have 
now five minutes.

   STATEMENT OF THE HON. RASHIDA TLAIB, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Ms. Tlaib. Thank you so much, Chairman.
    Honorable members of the committee, thank you all for this 
critically important hearing, and
    [speaking foreign language], which means thank you, 
Chairman Cummings, for always creating a space for us in this 
committee. From the first week you said we give you new energy. 
I hope that's still the case. So thank you.
    By allowing us to testify before this committee and enter 
what we observed and experienced in our visit to El Paso border 
on July 1, to the CBP Station 1 and the Clint camp into the 
congressional record, I appreciate that responsibility, and not 
picking on the President, but holding this administration 
accountable.
    First, no one is illegal. That term is derogatory now 
because it dehumanizes people. You can say any other forms of 
maybe coming in without regulations or so forth, but the use of 
``illegal'' is disrespectful. And I ask my colleagues to try in 
so many ways to not dehumanize our immigrant neighbors that are 
trying to come in for safe haven.
    Mr. Speaker, while working at human service and community 
advocacy organizations, I learned early on that to truly bring 
power to the table, to see what is at stake, you have to bring 
people in the room who can't be here. So I'm asking for 
Jakelin, who was age 7 from Guatemala, who died from sepsis 
while in our care. She's the same age as my son when I heard 
about it.
    Mr. Speaker, we do have a crisis at our border. It is one 
of morality, as we have seen this current strategy unfold, 
intentional and cruelly created by the Trump administration, 
dead set on sending a hate-filled message that those seeking 
refuge are not welcome in America, in our America, and that the 
rule of law, human rights, will not be--will not protect them 
here. Instead, Mr. Chairman, it's a dangerous ideology that 
rules our Nation right now.
    I have been so deeply haunted by the unforgettable image of 
a four-year-old boy coming up to me through a glass door of a 
cell he was in, with a number of other children, asked me in 
Spanish where his papa was, and slid a very small board to me 
so I could write something on it. It was like a dry board. I'm 
not sure what he needed before an agent asked me to stop 
engaging him.
    Chairman, again, bringing those who can't be here into this 
room, I ask my colleagues to see a drawing from one of the 
children in the cages, in the cells, up there, and I want you 
to not look away. I ask you and beg you not to look away.
    But the suffering in these illegal and immoral camps isn't 
just limited to those children. Something I learned, Mr. 
Chairman, is that--I was able to travel to Clint, Texas, and 
meet face to face mothers, fathers, grandparents who are 
suffering, ripped away from their families, not knowing if they 
ever see their children and loved ones again.
    I won't forget the father from Brazil who held onto his son 
with tears in his eyes as he told me in English he just wants 
his son to be an American boy. He said his wife--he was with 
his wife, his eight-year-old daughter, and teenage boy in a 
tent-like space outside of Station 1. He said he has been there 
for four days.
    I won't forget Daisy, the grandmother who had a red ribbon 
on her wrist with the name of the medication she needs, who 
said she had been in detention for 40 days, and she hadn't seen 
her grandson who was mentally impaired since being separated 
from him when they arrived. I wonder every day where she is now 
and whether or not she's hungry.
    The fear in their eyes won't be forgotten, Mr. Speaker, but 
the suffering in these illegal camps cannot be forgotten. 
Imagine traveling thousands of miles in grueling and dangerous 
conditions because you have no other option, only to be 
separated from your family, from your children, thrown into 
overcrowded cages, denied a shower, toothbrush, and, yes, Mr. 
Chairman, drink water out of the toilet if you're thirsty.
    Now imagine doing that while pregnant. In Clint, I met 
Bettys, a woman pregnant with her first child. She smiled at 
me, and I instantly connected with her. She had a pink hoodie 
on.
    And I instantly just went toward her, even though they told 
us not to talk to anybody, Mr. Chairman. I couldn't not go to 
somebody that's smiling at me. And I said hello, and she said 
hello in English. And I love that she felt confident to speak 
to me in the broken English.
    And she said she found out--I said, how long have you been 
here? She said 27 days. And she said: I'm with a child. And she 
glowed. She was so happy, because she had not known she was 
pregnant until she came here.
    But by showing up, Mr. Chairman, she is free now. The 
following day she is free now, and we are following the asylum 
process, and she is now at home. I spoke to her last week. 
She's so happy. She said: You will be part of my family 
forever.
    Ms. Tlaib. Mr. Chairman, it needs to be noted into record. 
I spoke to CBP agents, even though they told us not to speak to 
them too. Remember that? And I said: What do you think we need 
to do because you guys are overwhelmed?
    They said, one of the: Stop sending money. It's not 
working.
    Another one said: I wasn't trained for this. I am not a 
social worker. I'm not a medical care worker.
    He actually said: I want to be at the border. That's what I 
was trained to be at.
    The one other one, the last one, Mr. Chairman, the 
separation policy isn't working, he said. He knew about the 
separation policy that he was enacting.
    CBP morale is one of the lowest among law enforcement 
agencies, Mr. Chairman. Since between 2017 and 2018, we had a 
high of 100 agents committing suicide. That needs to be put in 
record. The dehumanization is not only with those families, but 
it's also with the agents that we've had told to do this to 
these families.
    Thank you, Mr. Chairman.
    Chairman Cummings. Thank you. Thank you very much. Thank 
you very much.
    Ms. Pressley?

  STATEMENT OF THE HON. AYANNA PRESSLEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Ms. Pressley. Chairman Cummings, Ranking Member Jordan, and 
colleagues of the committee, thank you for the opportunity to 
testify here today. I believe that it is both our opportunity 
and obligation as Members of Congress to shed light on 
injustice and to lift the voices of the unheard. Make clear 
that I don't say ``the voiceless.'' Every person has a voice, 
but our institutions do not always listen. So today I do not 
speak on behalf of anyone, but I make space for the stories our 
Nation so desperately needs to hear in this moment.
    Mr. Chairman, I cannot unsee what I've seen; I cannot 
unfeel what I experienced. I refuse to, although, admittedly, 
it robs me of sleep and peace of mind, but that pales in 
comparison to the pain felt by families that have been robbed 
of their liberty, their legal rights, and their dignity, and 
some even the lives of their babies.
    During our stop at the El Paso Border Patrol facility, I 
pressed my hand to a Plexiglass window. I met the gazes of 
several women on the other side. Their shoulders were slumped, 
their clothes filthy, their eyes vacant. I turned to a Border 
Patrol officer and asked: What is the temperature in this room?
    The officer responded: I do not know.
    I then asked how they set the temperatures in the room. He 
mumbled again he did not know.
    Mr. Chairman, on the day of our visit, it was a sweltering 
103 degrees in El Paso. What's the heat index at which you 
bring folks indoors, I inquired? Border Patrol responded with 
no answer. The most basic of questions about the care and 
welfare of those held in the custody of our government were 
either dismissed or met with a nonanswer, affirming what we 
know. This agency was never built, never designed, never 
trained for the care and keeping of families. These families 
need trauma support, caseworkers, clean water, adequate and 
nutritious food. Instead, they have received a level of 
degradation we should be ashamed is occurring on American soil.
    Once we realized we were not going to get the answers we 
needed from CBP officers, my colleagues and I pushed our way 
through a doorway to speak directly with the group of 
approximately 10 to 15 women who were detained in a small room. 
These women held thin blankets. They sat on the cold concrete. 
They had tears in their eyes, and as we walked in, relief and 
release as they collapsed at a sign of compassion.
    My colleagues Representatives Kennedy and Ocasio-Cortez 
translated the women's stories as quickly as they could. I held 
the hand of a woman who heaved sobs, as she explained, her deep 
fear that at any moment she could fall to the floor in a 
seizure. She's an epileptic, and the medicine she relies on had 
been confiscated. And, in fact, she feared that by telling that 
truth, she would experience retaliation after we left and her 
medication would continue to be withheld.
    I spoke to another woman who wept in my arms crying for her 
baby. She didn't care to know my name. She didn't care to know 
who we were. She simply craved compassion. She wanted to be 
treated like a human being. She asked me if she deserved to be 
treated like this, if they deserved to be treated like dogs. 
Each had survived a treacherous journey overcoming tremendous 
obstacles, and while I'm not fluent in Spanish, Mr. Chairman, I 
want you to understand that there was no barrier to 
understanding in that room.
    We speak the universal language: Of pain, of a mother's 
love, of justice. These women are not voiceless, Mr. Chairman, 
but they are cruelly and criminally unheard. Not today. Today, 
Congress has an opportunity to listen and to act. After 
everything these women have endured--fleeing violence, deep 
poverty, sexual violence, domestic abuse--they arrive at the 
crest of this Nation only to be torn apart from their babies 
and thrown in cages for seeking asylum, a legal right, a human 
right, and in spite of all of that, they believe so fiercely in 
the promise of this Nation.
    Mr. Chairman, on that concrete floor sat women with a deep 
and abiding love for a Nation that had known only as a captor. 
In spite of the abuse and adversity they had endured, all they 
desperately wanted to do was to hold their babies and have this 
Nation give them a chance, a chance to make a credible fear 
claim, a chance to make it to a court date, a chance to make 
the case that they would work so fiercely to make this Nation 
their home just as generations and generations before them have 
done. They begged us for forgiveness, Mr. Chair. What will we 
say to this generation of children and parents we imprisoned 
for seeking safety. We should be the ones begging for 
forgiveness.
    All they want is one more chance to make their way to 
protect their families to live, and I do not know what is more 
American than that.
    Chairman Cummings. Thank you very much.
    I want to thank our entire panel, all of you, for laying 
out the case, what you have observed and your opinions. I 
really appreciate the way you've done it. We are now going to 
move to the next panel. Again, thank you all.
    To the members, the vote is expected at around 11:35, so 
we're going to startup the second panel as soon as they get 
seated in about two or three minutes.
    [Recess.]
    Chairman Cummings. We'll now come back to order. This panel 
includes the independent inspectors general who have personally 
inspected these facilities, written detailed reports, and 
provided photographic evidence of their findings. Jennifer 
Costello is the Acting Inspector General of Department of 
Homeland Security. Ann Maxwell is the Assistant Inspector 
General for Department of Health and Human Services. Elora 
Mukherjee?
    Ms. Mukherjee. Mukherjee.
    Chairman Cummings. Yes, you, is a law professor, Jerome L. 
Greene, clinical, at Columbia Law School. Jennifer Nagda is the 
policy director, Young Center for immigrant children's rights. 
Thomas D. Homan, he's former acting director, U.S. Immigration 
and Customs Enforcement.
    If you would all please rise and raise your right hand, I 
will begin to swear you in. Do you swear or affirm that the 
testimony you're about to give is the truth, the whole truth, 
and nothing but the truth so help you God?
    Let the record show that the witnesses answered in the 
affirmative.
    And thank you. You may be seated.
    I let you know that the microphones are sensitive, so 
please speak directly into them.
    Without objection, your written statement will be made a 
part of the record.
    With that, Inspector General Costello, you are now 
recognized to give an oral presentation of your testimony. 
Again, before you start, we may not get through all of you, but 
we'll--but we're going to do the best we can with what we've 
got. And each of you have five minutes, and I'm begging you to 
stay within the five minutes because this is a getaway day for 
a lot of our members and so we got a lot to do today. All 
right. Ms. Costello?

 STATEMENT OF JENNIFER L. COSTELLO, ACTING INSPECTOR GENERAL, 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Costello. Thank you. Chairman Cummings, Ranking Member 
Jordan, and members of the committee. Thank you for inviting me 
here today to discuss our recent work related to conditions at 
Customs and Border Protection holding facilities along the 
southern border. My testimony today will focus on the dangerous 
overcrowding and prolonged detention recently observed by DHS 
OIG inspectors in both the El Paso Del Norte Processing Center 
and facilities in the Rio Grande Valley.
    These issues pose a serious and imminent threat to the 
health and safety of both DHS personnel and detainees and 
require the Department's immediate attention and action. DHS 
OIG conducts unannounced inspections of CBP facilities to 
evaluate compliance with CBP's Transport, Escort, Detention, 
and Search standards, otherwise known as the TEDS standards. 
TEDS standards governs CBP's interactions with detainees, 
providing guidance on things like duration of detention, access 
to medical care, access to food and water, and hygiene.
    Our inspections enable us to identify instances of 
noncompliance with TEDS standards and to propose appropriate 
corrective action. In doing so, we seek to drive transparency 
and accountability at the Department of Homeland Security. 
Although CBP has sometimes struggled complying with standards 
relating to duration of detention, our recent unannounced 
inspections revealed a situation far more grievous than those 
previously encountered by our inspectors.
    For instance, when our team arrived at the El Paso Del 
Norte Processing Center, they found that the facility, which 
has a maximum capacity of 125 detainees, had more than 750 
detainees onsite. The following day that number increased to 
900. We have also observed serious overcrowding among 
unaccompanied alien children, or UACs, at all the Border Patrol 
facilities we visited in the Rio Grande Valley.
    Additionally, we found that individuals, including 
children, were being detained well beyond the 72 hours 
generally permitted under TEDS standards and the Flores 
agreement. For instance, at the centralized processing center 
in McAllen, Texas, many children had been in custody longer 
than a week. In fact, some UACs under the age of seven had been 
in custody for more than two weeks.
    Under these circumstances, CBP has struggled to comply with 
TEDS standards. For instance, although all the facilities we 
visited in the Rio Grande Valley had infant formula, diapers, 
baby wipes, and juice and snacks for children, two facilities 
had not provided children access to hot meals as required until 
the week we arrived.
    Children at three of the five facilities we visited had no 
access to showers, limited access to a change of clothes, and 
no access to laundry facilities. Additionally, while Border 
Patrol tried to provide the least restrictive setting available 
for children, the limited space for medical isolation resulted 
in some UACs and families being held in closed cells. Space 
limitations are also affecting single adults. The lack of space 
has restricted CBP's ability to separate detainees with 
infectious diseases, such as chicken pox, scabies, and 
influenza from each other and from other detainees. According 
to management, these conditions also affect the health of 
Border Patrol agents who are experiencing high incidents of 
illness.
    There is also concern that the overcrowding and prolonged 
detention may be contributing to rising tensions among 
detainees. A senior manager at one facility in the Rio Grande 
Valley called the situation, quote, a ticking time bomb.
    Despite these immense challenges, we observed CBP staff 
interacting with detainees in a professional and respectful 
manner and attempting to comply with standards to the extent 
possible.
    Notwithstanding their efforts, Border Patrol requires 
immediate assistance to manage the overcrowding in its 
facilities. CBP is not responsible for providing long-term 
detention to detainees. Therefore, CBP facilities, like those 
we visited, are not designed to hold individuals for lengthy 
periods of time. However, with limited bed space at ICE and HHS 
facilities nationwide, detainees are left in CBP custody until 
a placement can be arranged in a long-term facility.
    In its response to our management alerts, DHS described the 
situation on the border as an acute and worsening crisis. Our 
observations comport with that characterization and that is why 
we have called on the Department to begin immediate action to 
remedy the situation. Although DHS has asserted that it has 
reduced the number of UACs in custody in the last few weeks, we 
remain concerned that it's not taking sufficient steps to 
address the overcrowding and prolonged detention we observed, 
particularly with respect to single adult detainees.
    We will continue to monitor the situation at the border and 
have already begun new work aimed specifically at identifying 
the root causes of some of these issues. We hope this work will 
assist the Department in addressing these challenges. In the 
meantime, DHS leadership must develop a strategic, coordinated 
approach that will allow it to make good on its commitment to 
ensure the safety, security, and care of those in its custody.
    Mr. Chairman, this concludes my prepared statement. I'd be 
happy to answer any questions you or the committee have.
    Chairman Cummings. Thank you very much.
    Ms. Maxwell?

   STATEMENT OF ANN MAXWELL, ASSISTANT INSPECTOR GENERAL FOR 
EVALUATION AND INSPECTIONS, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Ms. Maxwell. Good morning, Chairman Cummings, Ranking 
Member Jordan, and other distinguished members of the 
committee.
    Thank you for the opportunity to discuss OIG's work focused 
on the health and welfare of children in HHS' care. To protect 
the vulnerable is a core part of our mission, and as such, we 
have been conducting oversight of HHS' Unaccompanied Alien 
Children Program for the past decade. This program provides 
immigrant children that have been referred to HHS with 
temporary shelter, care, and services before releasing them to 
sponsors in the U.S. to await their immigration hearings.
    This past summer, over 200 OIG staff fanned out across nine 
states to visit 45 HHS-funded facilities. We assessed the 
challenges the facilities face in keeping children safe and 
meeting their mental healthcare needs. We anticipate publishing 
our results in a series of reports over the next several 
months, and we look forward to briefing the committee on this 
work, given your strong commitment and oversight role.
    In addition to our work addressing health and safety 
issues, we are also reviewing efforts by HHS to identify and 
reunify children who were separated by DHS and referred to HHS 
for care. We released our first report about this topic in 
January of this year, and the second is with the Department now 
for review and will be issued in the coming months.
    The focus of my testimony today will be our findings 
released in January related to the number of children impacted 
by family separations. At that time, we reported the total 
number of separated children was unknown, but certainly more 
than the 2,737 children reported. A lawsuit that required 
public accounting of separated children only covered children 
that, one, were separated from a parent and, two, were still in 
HHS custody as of the date of the court order, which was June 
26, 2018. But before that date, HHS had released from its 
custody other children who had been separated from a parent.
    In fact, HHS staff observed a significant increase in 
separated children starting in the summer of 2017. Since the 
release of our report, the court has expanded the lawsuit, and 
in response, the government is working to identify children who 
were separated from a parent dating back to July 1 of 2017. So 
far, the government has identified an additional 791 children 
who were potentially separated.
    It's worth noting that the government initially estimated 
that this effort to identify these children would take one to 
two years. Even the six months that the court ultimately 
granted the government reveals how significant the shortcomings 
were in the data captured about these children and their 
families. Judge Sabraw noted that detainees' personal property, 
their money, and documents were better accounted for than their 
children were.
    To address these serious shortcomings, HHS has taken steps 
to improve its ability to identify the children DHS is 
currently separating and referring to HHS. HHS now flags 
separated children in its case management system and maintains 
a tracking spreadsheet that captures information about them. 
However, concerns remain about the completeness and accuracy of 
information about these children. HHS staff reported that DHS 
sometimes provides limited information about the reasons for 
the separations. Of the 118 children we reviewed, DHS reported 
that 65 were separated because the parent had a criminal 
history, which could include such crimes as unauthorized use of 
a vehicle or a prior charge for marijuana possession.
    In some cases, though, the nature of the criminal history 
was not specified, even when HHS staff requested more 
information. Incomplete or inaccurate information about 
separated children, including the reasons for separation impact 
HHS' ability to make placement decisions that are in the best 
interest of each child.
    According to HHS staff, not all criminal histories would 
prevent a child from being released back to their parent. In 
conclusion, we strongly encourage HHS and DHS to look for 
opportunities to improve communication and data about separated 
children, to minimize their ramifications associated with these 
separations. We can do better by these children, and we must.
    Thank you to the Congress for providing OIG with additional 
resources to augment our important work in this area. I look 
forward to discussing our work with you today and to future 
conversations when our ongoing work is completed. Thank you.
    Chairman Cummings. Thank you very much.
    Ms. Mukherjee?

  STATEMENT OF ELORA MUKHERJEE, DIRECTOR, IMMIGRANTS' RIGHTS 
                  CLINIC, COLUMBIA LAW SCHOOL

    Ms. Mukherjee. Thank you, Chairman Cummings, Ranking Member 
Jordan, and distinguished members of the committee for having 
me here today. I'm a clinical professor of law at Columbia Law 
School and director of the Immigrants' Rights Clinic. For the 
last 12 years, I have been working with families and children 
detained along our southern border.
    Over the last five years, I have spent more than a thousand 
hours in immigration detention facilities, hundreds of them, 
interviewing families and children. All of my work has been on 
a pro bono basis. I was at the Clint CBP facility last month 
interviewing children as a monitor for the Flores settlement 
agreement. My colleagues and I interviewed nearly 70 kids. I 
want to share with you what I heard, what I saw, and what I 
smelled.
    At Clint, I saw children who were dirty. They could not 
wash their hands with soap because none was available. Many had 
not brushed their teeth for days. They were wearing the same 
clothes they had on when they crossed the border. Clothes that 
were covered in nasal mucous, vomit, breast milk, urine. 
Multiple children had a strong stench emanating from them 
because they had not showered in days, and they were wearing 
the same clothes. They could not even change their underwear.
    Because of the smell, it was hard for me to sit close to 
some of the children while we spoke. Children were hungry. 
Children were traumatized. They consistently cried, and some 
wept in their interviews with me. One six-year-old girl, 
detained all alone, could only say, ``I'm scared, I'm scared, 
I'm scared,'' over and over again. She couldn't even say her 
own name. I couldn't help her. I had to return her to the 
guards. Not being able to do anything for her broke my heart.
    Children were sick. They were coughing. They had fevers. 
They had snot running down their faces. There was a flu 
epidemic and lice. Children as young as eight years old were 
required to take care of even younger children who were 
strangers to them. Guards would bring in the little ones and 
demand: Who is going to take care of this one?
    We met a girl tasked with caring for a two-year-old who did 
not have a diaper on. He never speaks, she reported. He peed in 
his pants and all over the chair during a meeting with us. The 
youngest child I met with at Clint was five months old. At CBP 
facilities last month, my colleagues found a newborn detained 
for seven days, a two-year-old detained for 20 days, and an 
eight-month-old detained for three weeks.
    While I was at Clint, I met a teenage boy who had been 
separated from his mother 16 days earlier. He was extremely 
worried about his mama. He did not know if she was still alive. 
When we asked, CBP confirmed that he had, in fact, been 
separated from his mother and that his mother had been released 
from custody days earlier. I helped to arrange a phone call so 
this mother and child could speak with each other. They wept 
with relief. Before that day, no efforts had been made to 
reunite that child with his mother. No efforts had even been 
made to identify him as a child who had been separated from his 
parent.
    At Clint, I met a six-year-old boy who I will never forget. 
He was tiny, and he hardly spoke. When I asked him if he was at 
Clint with anyone, he began to sob nearly inconsolably for an 
hour, nearly an hour. Through his sobs, he managed to say that 
he had a brother. I had to break out of my role as a lawyer. I 
let him sit on my lap. I wiped his tears. I wiped his nose, and 
I rubbed his back. And I teared up too. Here was a child, the 
same age as my son, stuck in a hell hole.
    A lawyer for CBP saw us both, eventually a guard brought 
him a lollipop as an incentive to take him back to his cell. I 
pleaded with CBP counsel to please prioritize appropriate care 
for this child. Later that day or the next day, CBP counsel 
informed me that they would release him and reunite him with 
his brother. Why didn't that happen sooner? What would have 
happened if I didn't meet with him that day? What is happening 
to hundreds and thousands of other children like him? Along our 
southern border today and every day, children are being 
forcibly separated from their parents and other family members 
as a result of cruel policy choices made by this 
administration.
    For many of these children, the government makes little or 
no attempt to reunite them with their family members. Our team 
demanded a tour of Clint and visits with the sickest children 
who were in the quarantine. CBP banned us from both. Why 
wouldn't CBP allow us in? We are authorized by the Federal 
courts to monitor immigration detention centers where children 
are being held. I was and I remain shaken to my core by what I 
witnessed at Clint.
    I have three children of my own. They are three, six, and 
nine. I do not have the words to explain to them what is 
happening to children their age in America right now. Families 
belong together, children belong free, and with their loved 
ones. That is what is required by our Constitution, by our 
Federal laws, and by our basic humanity.
    Chairman Cummings. Thank you very much. Thank you. Thank 
you.
    This is what we are going to do. We have a vote right now. 
There's 10 minutes left on the vote I think, and so what we're 
going to do is, we're going to go into recess. We will 
reconvene at 1:15. At that time--I'm sorry. This is the way it 
goes. I mean, we're dealing with urgent situations, and then 
we'll be back at 1:15. Thank you very much. We stand in recess.
    [Recess.]
    Mr. Raskin.
    [Presiding.] The committee will reconvene. Members in the 
front row who are doing such a great job, you're welcome to 
come sit up here so we can have a more intimate and coherent 
group. I know a lot of members have headed back to their 
districts. Without objection, the chair is authorized to 
declare a recess at any time.
    And we are now delighted to welcome for her five-minute 
testimony, Jennifer Nagda, the policy director for the Young 
Center for Immigrant Children's Rights.

STATEMENT OF JENNIFER NAGDA, POLICY DIRECTOR, YOUNG CENTER FOR 
                  IMMIGRANT CHILDREN'S RIGHTS

    Ms. Nagda. Thank you, Mr. Chair, Ranking Member Jordan, and 
distinguished members of the committee. Thank you for inviting 
me to be here today. The Younger Center for Immigrant 
Children's Rights advocates for the best interests of 
unaccompanied and separated children according to well-
established and universally accepted principles of child 
protection.
    We are working to create an immigration system that ensures 
the safety and well-being of every child, and that recognizes 
and treats children as children. Since 2004, our attorneys, 
social workers, and bilingual volunteers have been appointed by 
the Secretary of Health and Human Services Office of Refugee 
Resettlement as the independent child advocate, or best 
interest guardian ad litem for thousands of child trafficking 
victims, and other vulnerable unaccompanied and separated 
children in Federal custody who find themselves in very adult 
immigration proceedings.
    Our statutory mandate is to make recommendations regarding 
the best interests of individual children to Federal agencies, 
including the Department of Homeland Security, Justice, and 
Health and Human Services. Over the past two years, across 
eight locations, we have worked on hundreds of cases where DHS 
officials unlawfully separated children from their parents.
    If I leave you all with one message today, it is this: 
Children are still being separated from their parents at the 
border for reasons that have nothing to do with child safety, 
and which would never pass muster under the child protection 
laws of all 50 states. Despite the end of zero tolerance one 
year ago this month, the Young Center has been appointed to 
more than 100 children taken from their parents during this 
last year, nearly 20 percent of the reported 700 children newly 
separated. The average age of these children is seven years 
old, the equivalent of a second grader.
    These children spend months in government custody, often 
thousands of miles away from their families. Our staff, my 
colleagues, spend hundreds of hours just trying to find parents 
who might be in U.S. Marshals' custody, or ICE adult detention 
centers. We negotiate with ICE officers just to speak with the 
parents and convince them to let parents speak with their 
children, often for the first time in months. And then we work 
to unravel the reasons for their separations.
    I'm here today to address the reasons for these continuing 
separations and their lasting impact on children. In our 
experience, DHS has separated families based on mere arrests, 
or suspicion of criminal activity by the parent. No state would 
permit separation for these reasons, unless the crime was 
related to child abuse. In nearly every case, we have concluded 
that DHS's reasons for the separation had nothing to do with 
the child's safety and that the separation was contrary to the 
child's best interests.
    In one case, a father with a single DUI and a prior 
deportation was separated from his child. In another, the 
mother of a toddler was accused of being a gang member, which 
even if true, does not by itself justify separation, but she 
was not a gang member, she was a victim of extraordinary gang 
violence, who fled here specifically to seek protection for her 
child, only to have her child taken from her for over eight 
months.
    And we have discovered that in many of these cases, DHS 
ultimately allows the same family to reunify months later, but 
only to deport the family. The split-second decision to 
separate a child from her parents can take weeks, or even 
months, to undo.
    In the meantime, the harm to children is indisputable. From 
the Supreme Court to state courts, our laws reflect the 
importance of parents and family to children's healthy growth 
and development. Scientific research bears this out, 
documenting the lasting harm to children's physical, emotional, 
and brain development when they are separated from loving 
caregivers. Our independent child advocates have witnessed this 
harm firsthand.
    In our written testimony, we tell the story of a six-year-
old boy who believed for months that his father had 
intentionally left him. In truth, his father was given no 
choice. He had gently handed his son over to prevent officers 
from forcibly taking his child from his arms. Their bond can't 
be repaired just by putting father and son together on a plane 
to home country.
    In our written testimony, we propose eight concrete 
recommendations for Congress to stop these unnecessary and 
unlawful separations. I'll leave you with just two: First, no 
child should ever be separated from a parent unless there is an 
immediate risk of harm. Congress should prohibit separations 
absent verifiable evidence that the child is in danger.
    And, second, Congress should require each Federal agency to 
consider the best interest of unaccompanied and separated 
children, their safety, their wishes, and their well-being in 
every decision from the moment of apprehension through the 
conclusion of the child's case. This committee can play a 
critical role in stopping ongoing separations and ensuring that 
immigrant children are treated and recognized as children. 
Thank you.
    Mr. Raskin. Thank you very much for your testimony, Ms. 
Nagda. We come now to Thomas Homan, who is the former acting 
director of the U.S. Immigration and Customs Enforcement. 
You're recognized for five minutes.

  STATEMENT OF THOMAS D. HOMAN, FORMER ACTING DIRECTOR, U.S. 
              IMMIGRATION AND CUSTOMS ENFORCEMENT

    Mr. Homan. Sir, my statement is going to take about six 
minutes, I appreciate leeway since other panel members had up 
to seven minutes.
    Mr. Raskin. All right. Go for it.
    Mr. Homan. Chairman Cummings, Ranking Member Jordan, and 
members of the committee, it is a privilege to appear before 
you today, and thank you for this invitation.
    I spent 34 years enforcing immigration laws. I started my 
career in 1984 as a Border Patrol agent, then as a special 
agent and climbed the ranks, one step at a time, to become the 
acting ICE director. I have conducted and oversaw criminal 
investigations into alien----
    Mr. Raskin. If the gentleman will suspend for just a 
moment. We're not allowed to have graphic poster displays 
during testimony of witnesses. Okay. Thank you.
    Mr. Homan. I have conducted and oversaw criminal 
investigations into alien smuggling, human trafficking, 
immigration fraud, narcotics trafficking, gun trafficking and 
human trafficking, child predator crimes and other customs-
related offenses. As the executive associate director of ICE, I 
oversaw all interior enforcement operations, to include 
arrests, detention, removal of those illegally in United States 
in order to be removed by an immigration judge.
    Mr. Raskin. Forgive me, Mr. Homan. The gentleman will 
suspend. Officer, the people who were doing that are allowed to 
stay if they agree not to do any more poster demonstrations, so 
just let them know that and they can quietly be readmitted. 
Very good.
    Mr. Homan, your time will be compensated for. Thanks.
    Mr. Homan. I returned on January 27, 2017, was asked on 
that same day to postpone my retirement and serve as the acting 
director of ICE by the President of the United States. That was 
a great honor. I stayed and served for another year and a half 
until my second retirement on June 30, 2018.
    With more than three decades of immigration enforcement 
experience, I am extremely concerned about the growing risk to 
our Nation's public safety, security, rule of law, that is all 
due to illegal immigration. What is happening at our southern 
border is unprecedented in several ways. The composition of 
those entering illegally is unprecedented, because 70 percent 
of those are either family units or unaccompanied children.
    It is also unprecedented that the majority of those 
crossing are abusing the asylum laws, and making fraudulent 
claims of asylum and are exploiting the loopholes that Congress 
has reduced to close. Also unprecedented is the attack and 
vilification on the American patriots that serve this Nation as 
Border Patrol agents, ICE officers and agents. The biggest 
problem involves the unwillingness of Congress to address the 
loopholes that are causing this crisis.
    I and many others have spent the last two years saying what 
needs to be done, not only to protect our borders, enforce the 
law in a meaningful way, but to also save lives. However, those 
calls for action fall has fallen on deaf ears, because there is 
no more interest in fixing this problem. It is about open 
border agenda, resisting our President, more interest than 
that, in securing our border. This should not be a partisan 
issue. I don't care if you're Republican or Democrat, you 
should want to secure our border.
    There's no downside of having a secured border. There's no 
downside of having less illegal immigration. There is no 
downside on less illegal drugs coming into this country. There 
is no downside in stopping the bankroll and criminal cartels in 
Mexico that smuggle both people and drugs. After all, Border 
Patrol and ICE are merely enforcing the laws enacted by 
Congress.
    In the past few weeks, the attacks on the Border Patrol 
have swelled. The media and some in Congress want to say that 
those in the Border Patrol custody are mistreated. The holding 
facilities are overcrowded and there are not enough showers. 
The DHS inspector general also said the facilities are 
overcrowded, which, in turn, affects the quality of care within 
the facility. However, this should be no surprise to anyone.
    Border Patrol leadership and acting DHS Secretary McAleenan 
having been warning Congress for months that this system is 
overwhelmed, and that more funds are needed so these people can 
be moved quickly to a more appropriate facility designed for 
them.
    The same people that vilify the Border Patrol for detention 
conditions are the same people that refuse to answer their call 
for help until it's too late. I find it disheartened that no 
one here I've heard today wants to talk about the 4,000 lives 
that the Border Patrol saved last year. Over 4,000 people that 
were found by Border Patrol agents in dire straits, that may 
have perished if it wasn't for the heroic efforts of these 
agents.
    No one talks about how these men and women bring toys from 
their home and their own children to these facilities so 
migrant children will have something to play with. No one talks 
about the sicknesses of these migrants and how these agents 
take that sickness home to their own families because of that 
exposure. No one wants to talk about the how the agents have to 
go through TB screening constantly because they have been 
exposed to that serious illness.
    No one wants to talk about how these men and women who care 
for these children that cross illegally into this country, I'm 
talking about unaccompanied alien children now, cross into this 
country in the hands of criminal organizations that were 
abandoned by their own families. No one wants to talk about 
that. No one wants to talk about how these Border Patrol agent 
mom and dads console these children, and it is disgraceful.
    Finally, I want to address the unprecedented attack and 
vilification of the men and women of ICE and the Border Patrol. 
These men and women who chose a life of service to this Nation 
deserve better, not only from the media, from those here in 
this committee and other Members of Congress. These men and 
women who chose a life of service deserve more.
    These men and women are working in extremely difficult 
environments, and dealing with an extraordinary influx of 
vulnerable people. They are doing the best they can under the 
circumstances. As a 34-year veteran of law enforcement, it is 
shocking, shocking to see the constant attacks against those 
that leave the safety and security of their homes every day, 
put on a Kevlar vest and put a gun on their hip, and risk their 
own safety to defend this Nation.
    Those that attack the professional integrity of those that 
serve and blatantly throw unsubstantiated allegations against 
these men and women with zero evidence of guilt are wrong and 
should be ashamed. Most of these allegations are to be untrue 
after extensive investigation, but it's too late when that 
happens because the damage has been done.
    The agency has been tarnished and the spirit of the men and 
women that serve are many times broken, their morale is at an 
all-time low. They have to wake up every day and see news 
reports and comments from Representatives in Congress that they 
are Nazis, White Supremacists, that they operate concentration 
camps, that they knowingly abuse women and children.
    Those that make those outrageous statements believe that 
once you decide to carry an ICE badge or a Border Patrol badge, 
that you lose all sense of humanity. They think that no longer 
do these people have a heart or they care about other people.
    ICE agents and Border Patrol agents are mom and dads too, 
they have children. What they see every day in this 
unprecedented surge of children and families affects them 
deeply and emotionally. It is something they're going to deal 
with every day and will stay with them the rest of their lives.
    Over half of Border Patrol agents are of Latin descent. And 
to say that they abuse those from Central America with no 
evidence of abuse is just plain wrong and insulting to those to 
have to endure this crisis each and every day.
    I ask this: Has any of those who easily attack the men and 
women of the Border Patrol, ICE, have you ever walked up to one 
and thanked one for serving their Nation? Have you ever walked 
up to one and thanked them for putting their lives on the line 
every day for this country?
    Have you ever attended the honor burial of a Border Patrol 
agent or ICE agent that died during their job, died for this 
country? Have you ever had to console a small child or spouse 
of a fallen officer? I have too many times. Have any of these 
people who want to attack the Border Patrol and ICE, have you 
ever walked the walls of the National Law Enforcement Memorial, 
just down the street, and see 21,000 names of men and women 
that made the ultimate sacrifice for this country, which 
includes hundreds of Border Patrol agents and ICE agents and 
their legacy agencies? These agents deserve better from the 
Representatives of Congress. With that, I'll be available for 
questions.
    Mr. Raskin. Thank you, Mr. Homan, for your testimony. And I 
want to thank all of the witnesses for their excellent 
testimony. I now recognize myself for five minutes for 
questions.
    I want to shine a light on a key finding in today's 
committee staff report. President Trump and others in the 
administration have suggested that the zero tolerance policy is 
designed to deter illegal immigration, but at other times, they 
have said that families are only separated in order to 
facilitate criminal prosecutions of the parents. But the report 
details several instances where children were separated from 
their parents, or a parent, but the parent never actually 
served time in jail, or in prison, or in criminal custody.
    For example, Secretary Nielsen said the only thing that had 
changed under the zero tolerance policy was that everyone is 
subject to prosecution, and that parents would go to jail, and 
then they would then be separated from their family. But what 
actually is going on? Are there children being separated from 
their parents unnecessarily? Ms. Mukherjee, let me come to you 
and ask for your insights on that.
    Ms. Mukherjee. Yes. Yes. Families are being separated every 
day and unnecessarily. Government has admitted to separating 
more than 3,500 families. In addition, since the court had an 
injunction last summer, last June, ordering the stop to 
separations of parents and children, more than 700 family units 
have been separated. Many of these family units are being 
separated based on only allegations and arrests that may have 
nothing to do with child safety.
    Children should only be forcibly separated from a parent or 
another family member if that adult family member is posing 
imminent harm to the child. There is no evidence that that is 
happening.
    Mr. Raskin. Ms. Nagda, let me come to you. There are 
reports that we've received that a parent was in criminal 
custody for less than a day. They left a facility, and then 
either charges were not pressed against them, or they were 
given time served for the time they had already been in 
detention. They returned to the detention center and their 
child is already gone. That's absolutely astounding to read. Is 
that taking place, to your knowledge?
    Ms. Nagda. What you just described, Chairman, is what was 
happening during the zero tolerance policies, where many 
parents were being prosecuted for the act of appearing and 
asking for protection at the border. And those were often 
processed just in a day in a Federal court, and the parents 
return to find their children missing.
    Today, parents and children are being separated when DHS 
alleges any kind of criminal history, which does not have to be 
narrowly defined by the parent. It could be an arrest from a 
decade ago. It could be an allegation of criminal history in 
home country. We have worked with multiple parents whose 
children were taken away because DHS accused the parent of 
having a criminal history in home country. Our team's working 
with other legal services provider procure documents from home 
country confirming that there was no criminal history. So 
there's no reason to know what information DHS had, but at that 
point, weeks and sometimes months have passed.
    Mr. Raskin. Wait, so you're telling me that's the policy 
today? A parent shows up with a child seeking asylum in the 
United States. It's determined that they have an offense, and 
it could be a very minor offense that has nothing do with child 
abuse or child neglect or anything like that, and yet, they end 
up losing their child in the process where the child can be 
separated from them?
    Ms. Nagda. That's correct. And not only does it not have to 
be a minor offense, it doesn't have to be a conviction. It 
could be an arrest where charges were dismissed, or it could be 
suspicion of criminal activity. So we have worked with a parent 
who appeared to be and was concerned about and may potentially 
have been a gang member in home country without no verifiable 
evidence who is separated from his toddler son.
    Mr. Raskin. Is there anyone on the panel who believes it is 
the right policy to separate children from their parents in 
order to deter other people from coming to the United States? 
Okay. I want to talk about a specific policy change that the 
administration could make right now at no cost to the taxpayers 
that would reduce the number of immigrant children living in 
overcrowded and dangerous facilities.
    I'm talking about rescinding the administration's April 
2018 memorandum of agreement, or MOA, that requires the 
Department of Health and Human Services to share information 
about potential sponsors for immigrant children with the 
Department of Homeland Security. Last year, the administration 
used data obtained under this agreement to arrest and deport at 
least a 170 people who otherwise would have been willing 
sponsors of the children.
    Ms. Mukherjee, what happens to children whose potential 
sponsors are targeted for deportation?
    Ms. Mukherjee. What happens to the kids is that they are 
left for days, weeks, months, without anyone to take care of 
them who's in their family who's a loved one. Last year, my 
client, Baby Constantine, just four months old, was forcibly 
separated from his father. His father was then deported without 
his baby. It took weeks, months, for Baby Constantine to be 
return to his family.
    Mr. Raskin. Okay. My time is up, and I'm going to yield now 
to the ranking member, Mr. Jordan.
    Mr. Homan. Can I respond to that question?
    Mr. Raskin. Well, Mr. Jordan can--we're pretty strict about 
our time here, so Mr. Jordan can ask you--Mr. Hice is actually 
going to take it.
    Mr. Hice. Thank you, Mr. Chairman. Yes, there's so many 
things going on today, my mind is going in multiple directions. 
I think immediately how we were corrected, somewhat 
reprimanded, but I'll use the word ``corrected,'' for even 
using the word ``manufactured crisis'' over and over and over, 
that the Democrats have said. But we don't have to go very far 
to see that that correction is not justified.
    On February 23 in Laredo, Texas, Speaker Pelosi said, there 
is no national emergency at the border. There is no emergency 
at the border. She was either misinformed or she was 
misinforming. Shortly thereafter, Congresswoman Ocasio-Cortez 
called it a fake national emergency. Again, the word 
``manufactured'' was not used. It was an outright statement 
that this is a fake national emergency. She also referred to it 
as the President was faking a crisis at the border. I don't 
believe that correction today is in order.
    There has been an absolute about-face and shifting of 
position from the Democrats. It's already been mentioned back 
in February, the President called for an national emergency at 
the border, and now we're hearing that there is a national 
emergency from both sides, because indeed there is.
    In May, the administration requested $4.5 billion in 
emergency funding. Eight weeks later, we finally get something 
done on June 27, but there again, many in this room did not 
vote for it, and yet they are talking today as though they have 
some moral high ground. The bottom line is there is a root 
cause. There is an emergency and there is also a root cause to 
the emergency. And to this time, we're still not addressing the 
problem. And at some point, this body has got to face reality 
and deal with the issues.
    I've got a couple of real quick questions, Ms. Costello, 
first for you. Is the Border Patrol responsible for long-term 
detention?
    Ms. Costello. No, sir, they are not.
    Mr. Hice. That's correct. They keep short term and then 
after that, when they are able, they send them to ICE or DHS, 
correct?
    Ms. Costello. HHS, yes.
    Mr. Hice. I mean HHS, thank you.
    Ms. Costello. Yes.
    Mr. Hice. So the Border Patrol cannot transfer these 
detainees if both ICE and HHS are overwhelmed themselves?
    Ms. Costello. Yes. As of now, that is our understanding. 
We're going to be doing further work to try to get to the root 
causes of some of the issues we identified in the management 
alert.
    Mr. Hice. Mr. Homan, is that basically your experience of 
what the problem is?
    Mr. Homan. Sir, I would--well, the statement made by HHS a 
few minutes ago was wrong, and that is a very important thing I 
need to address. As far as the policy of HHS, sir, it needs to 
be stricter. When I was the ICE director, I tried to create an 
MOA with HHS. If you're a parent and you hire a criminal 
organization to have your kid smuggled in the trunk of a car or 
back of a tractor trailer, you should come to ICE to get 
vetted. If you're illegally in the United States, we'll put you 
in proceedings with a child. We won't take you into custody, 
but you'll stand shoulder to shoulder with that child and claim 
your fears of family. I called that parenting, first of all.
    You, second, you got to hold them accountable. In the 
Fiscal Year 2019 appropriations bill, when we finally reopened 
government, what did the Democratic side of that caucus do? 
They added language that ICE cannot takes action against 
anybody the UAC household. When I said at the time, if you do 
that, the number of UACs will swell, you'll see a surge like 
never before because these now these people can operate with no 
impunity, no consequence, no deterrence.
    And, what happened, sir? A record number of UACs coming 
across this country. If we're really here to talk about 
protecting children, then that memorandum of understanding 
needs to be more strict.
    Mr. Hice. Thank you for that. You know, just this whole 
hearing seems to me to be rife with hypocrisy and falsehood. It 
strikes me that criticizing Border Patrol and ICE and so forth 
for overcrowded detention centers. I mean, we don't condemn 
teachers for having overcrowded classes. We don't blame 
teachers for illnesses floating around in overcrowded 
classrooms. And yet, it's fair game for us to do it right here.
    And the fault, the problem lies with us right here in 
Congress for not addressing the problems, and instead referring 
to political theater. And I just, I urge all of us to come to 
the point of addressing the issue straight up.
    Mr. Homan, why does ICE not have enough detention beds--and 
my time is up, and I thank you, Mr. Chairman.
    Mr. Homan. ICE has never had enough detention beds. And I 
know it is a big controversy when money was moved around the 
Department last year to get more detention beds. They said, 
What a travesty. What people need to know, eight out of the 
last nine years, that same thing happened. It happened under 
the Obama Administration. ICE has never been funded enough 
beds.
    Mr. Raskin. Okay. Thank you. The gentleman's time is 
expired. Mr. Cooper, you're recognized for five minutes.
    Mr. Cooper. I thank the chair. And I would like to suggest 
that the last two days in this committee have been historic 
ones. Yesterday, we had the first hearing, I think, in this 
entire committee's history, on the well-being of U.S. children. 
And today, thankfully, we're having a hearing on the well-being 
of children at the border. These are important issues, because 
I think most Americans think that we can have secure borders 
and humane borders.
    I want to particularly congratulate today's hearing, 
because both panels have been extraordinary. The member panel 
was something, unlike anything I have ever seen before in my 
tenure in Congress. And it was great that members were able to 
hear both sides of the question, both groups of voices. I 
particularly want to praise my colleagues who went to the 
border just last weekend to see firsthand what these problems 
are.
    But the second panel is no less remarkable. I was 
particularly struck by the testimony of Ms. Mukherjee, it is 
heartbreaking. And Nashville families have been calling me, 
opening their hearts and offering to open up their homes to 
these poor families, particularly, to these poor separated 
children, because I think everybody in America wants these kids 
reunited with their families. They cannot understand a country 
that is so cold and heartless to have policies like this.
    So, I think just for the general public, we need to 
understand the importance of two things: The Flores decision, 
some court decision somewhere. I saw in Ms. Nagda's testimony, 
that I think it's first in your policy recommendations that we 
keep the Flores protections in place. Can the panelists 
describe briefly the importance of that decision in terms of 
protecting these poor innocent children?
    Mr. Homan. I'll address it first. The Flores settlement 
agreement needs to be done away with. Because in Fiscal Year 
2014 and Fiscal Year 2015 under the Obama Administration, when 
families first started coming across, we built our first family 
detention center, which no one wants to talk about. And we held 
these families for 40, 45 days so they got to see a judge. 90 
percent of them lost their case. We put them on the airplane 
and sent them home, as required by law, and guess what, the 
border numbers declined significantly.
    It wasn't until Judge Dolly Gee of the Ninth Circuit, says 
you can only hold them for 20 days, that we saw a surge, 
because now they know they can't be held long enough to see a 
judge. If they are really escaping fear and persecution, 
there's no reason they can't stay in the family detention 
center, not a jail, time enough to see a judge.
    Mr. Cooper. Other witnesses as well?
    Ms. Nagda. Thank you for that question. I will just point 
out that the Flores Settlement Agreement, which provides 
baseline standards for care, things like food and water and 
beds has existed for over 20 years. It is not a new piece of 
law. Similarly, the anti-trafficking law is over 10 years old. 
These are the only two ways in which U.S. law treats immigrant 
children any differently than adults.
    And with all of the evidence that we have about how 
fundamentally different childhood is from adulthood, the idea 
of losing these two pieces of protection for children is really 
quite extraordinary. What we should be focused on is enhancing 
protections for children so that we can actually learn their 
stories, and ensure that they have a fair day in court. That 
ought to be something we can all agree on. The idea that 
children should have a fair opportunity to tell their stories.
    And the Department of Homeland Security's own advisory 
committee, which I sat on back in 2015 and 2016, all members 
were appointed by the Department of Homeland Security, 
concluded that children should never be held in detention, 
including family detention, solely for the purposes of 
immigration enforcement ever.
    Mr. Homan. There's only one way you can guarantee----
    Mr. Raskin. Sir, I'm----
    Mr. Homan. No, I'm sorry. This is about transparency to the 
American people.
    Mr. Raskin. Well, the time belongs to Mr. Cooper, and I 
thought he was going down the aisle.
    Mr. Cooper. Yes, the witnesses.
    Ms. Mukherjee. I want to echo everything my colleague said 
about the critical importance of the Flores Agreement. Without 
the Flores Agreement, my colleagues and I would never have been 
allowed into Clint to interview the children there and expose 
what is happening in our country in our name and with our 
taxpayer dollars.
    I also want to correct the record. Mr. Homan just claimed 
that 90 percent of the mothers and children detained at Dilley 
were ordered deported. That is not true. Nearly all of the 
mothers and children were ordered deported before pro bono 
lawyers like me showed up. I helped to build a system of 
universal representation for mothers and children at Dilley. 
Once we started that program, every mother and child was 
granted asylum or another form of immigration relief. This 
shows how important access to counsel is for detained immigrant 
children, detained immigrant families, and those who are 
outside of detention as well. Thank you.
    Mr. Raskin. And I'm going to permit the other two witnesses 
to give quick responses, too, if there's anything you want to 
say. No.
    Mr. Cooper. Thank you, Mr. Chairman. I see my time has 
expired.
    Mr. Raskin. The gentleman's time has expired. Meantime, 
without objection, the distinguished gentleman from Illinois, 
Mr. Garcia, shall be permitted to join the committee on the 
dais and be recognized for questioning the witnesses when the 
time comes.
    Now Mr. Gibbs is recognized for five minutes.
    Mr. Gibbs. Thank you, Mr. Chairman. Before I start my 
questions, I'm going to let Mr. Homan respond to the previous. 
Mr. Homan, over here. Over here. Over here. Over here. Go ahead 
and respond.
    Mr. Homan. Sorry. The 90 percent number, the executive 
Office of Immigration view--the numbers are clear; 89 to 90 
percent of all Central American families that claim asylum at 
the border do not get relief from the immigration court. 
Because, you know, 50 percent, or actually 48 of those families 
claiming fear at the border, never file a case in immigration 
court. Once they get released, they're in the wind. 90 percent, 
sir. 89.6 percent, I think the latest number was, of every 
family from Central America to claim asylum at the border were 
not given relief. And any system where there is 90 percent 
failure rate needs to be fixed.
    Mr. Gibbs. Thank you. You know, I sat through the first 
panel and the second panel, been great panels. And one thing 
I've noticed, I think everybody sees us and what everybody is 
saying is pretty much generally accurate. And I think the 
problem is here, the administration, the Trump administration, 
asked months ago that we have a crisis at the border, asked for 
more resources to change our asylum laws and reform our 
immigration laws and do all that, and this Congress failed to 
act, and now we have it blown up.
    We have got a crisis at the border, because we've got 
people at the detention facilities that are 10 times or more 
above capacity, and it's a crisis. Now everybody is blaming the 
Border Patrol and ICE. And I agree with Mr. Homan, those agents 
down there, they are family people, too, they are human beings, 
they're Americans, and we shouldn't desecrate them because 
they're doing their job with the resources they have. And it's 
just unbelievable to me that this Congress took this long to 
pass some legislation here the week before last, $4.6 billion 
of humanitarian aid, which some people on this panel voted 
against, by the way, and it is helping them--Mr. Homan, what do 
you think that passage of that legislation, those resources, 
what do you anticipate, what do you think is happening?
    Mr. Homan. With the supplemental funding?
    Mr. Gibbs. Yes, the supplemental funding.
    Mr. Homan. The supplemental funding was late.
    Mr. Gibbs. Yes.
    Mr. Homan. And that's why they had the conditions they had, 
but it's working. It's my understanding that now children are 
being moved within 72 hours, as required by statute, which is a 
good thing. No one wants a child to be locked up in a Border 
Patrol facility. The head of Border Patrol and the Secretary 
said that numerous times.
    Mr. Gibbs. See, that's my point. The people--the entity 
that ought to get blamed here is the U.S. Congress for failing 
to act. I mean, the administration asked months ago, we got a 
crisis, but we heard from the other side, it's a manufactured 
crisis, it's not a crisis. Now it's a crisis, they're all 
saying that. Some of them went down to the border and saw it 
was a crisis.
    And I'm sure there's some examples of--because of the 
overwhelming conditions--there's problems and challenges, and I 
know I've seen the reports of the border agents, and Mr. Homan 
talked about it, where agents are bringing stuff in from their 
own families out of their personal, you know, items, personal 
budgets to help, doing what they want because they're human 
beings, too, and sometimes, I think, we forget that. And 
they're really struggling right now to get this done.
    And I want to talk a little bit more about the Flores 
Amendment Settlement. You know, Mr. Homan, what has that done 
to really impede what you can act on?
    Mr. Homan. I should have been more clear in my statement. 
When I'm talking about the Flores Settlement Agreement, when 
I'm talking about when the Ninth Circuit decides that they are 
going to limit it to 20 days, and they know that it takes about 
40 to 45 days in a detained setting to see a judge, they knew 
it was going to happen. And I said what was going to happen, 
but I was called a fear monger. I said, if that 20 days gets 
put in, you're going to see a surge of families than you never 
seen before, and it happened. I was right.
    And if you're really escaping death and persecution from 
your home government, the only way we can guarantee you're 
going to see a judge, because we know the absentia rates is out 
of control, these families--a lot of these families are not 
showing up in court even if they file with the court. The only 
way we can guarantee due process if we detain them in the 
family detention center, which the Inspector General inspected 
many times. We're not talking about Border Patrol facilities 
now, we're talking about a center with child psychologists, 
pediatricians, doctors, nurses, educational programs.
    Mr. Gibbs. But you're overwhelmed.
    Mr. Homan. We don't have enough family detention----
    Mr. Gibbs. You're overwhelmed----
    Mr. Homan. Because these numbers have just gone through the 
roof. But if we had a true sense that we can guarantee people 
to see a judge, and those who have failed their claim to 
asylum, if they don't fall within the rules of asylum, and send 
them home----
    Mr. Gibbs. I'm almost out of time.
    Mr. Homan. It worked in 2014 and 2015 when we sent planes 
of people that failed their interview and failed the judge, and 
the judge ordered removal. We said that the numbers went down.
    Mr. Gibbs. It must be a real challenge for the Border 
Patrol, minors coming in with, obviously, a lot of them with 
their parents, but obviously, maybe not so. And I've seen the 
reports of recycling kids and bringing them back.
    Mr. Homan. That's another thing I haven't heard today. When 
you talk about the separation that occurred at the border when 
the judge first ordered the reunification of the first 112 or 
102 children, no one wants to talk about 6 percent of those, 
based on DNA testing, weren't even the parents. So if you 
extrapolate that between the 2,600, 2,700 people, how many 
children were reunited with someone who wasn't even their 
parent? That is going to shock us some day.
    Chairman Cummings. Mr. Connolly.
    Mr. Connolly. I thank the chair. I got to say, Mr. 
Chairman, you've had two tough hearings in a row. I'd never 
thought as a Member of Congress, as an American, I would hear 
the testimony I heard today, both from our colleagues who 
visited the border, and especially three of the witnesses--four 
of the witnesses at this table--as to the simple inhumanity 
that is facing children and families at the border.
    I don't really care what their motivation was, whether it 
was an asylum or economic betterment. They're not to be treated 
as subhumans. This is not an American way of dealing with the 
stranger who comes and seeks succor. You can talk all you want 
about whether the poor Border Patrol is overwhelmed. That makes 
no excuse for how we are treating children.
    If there's one basic value that ought to unite us as 
Democrats and Republicans, as Americans, it is how we treat 
children. Their children, our children, it doesn't matter. 
That's our fundamental value. And I've sat here and listened to 
horror stories. I thought it was fiction. I thought it was a 
novel reading from Charles Dickens, and the conditions that 
prevailed in 19th century London. Children without soap. 
Children in filth. Conditions that none of us would ever 
countenance with our own children. Well, any child in our care 
is our children.
    And the equivocation, the enabling, the rationalization, is 
inexcusable. Is there no limit to what you will justify in this 
administration when it comes to the mistreatment of our fellow 
human beings? And do you have no shame about the fact, as our 
colleagues said this morning, it's all done in the shadow of 
the American flag. As an American, I have a right to protest, 
because it's being done in my name and I don't agree.
    Ms. Costello, you're the IG for DHS. Is that correct? 
Acting?
    Ms. Costello. Yes, sir.
    Mr. Connolly. Now, if I heard you correct this morning, you 
talked about dangerous conditions that constituted an imminent 
threat to health and safety.
    Ms. Costello. Yes, sir.
    Mr. Connolly. Is that because they're just overwhelmed and 
there's no solution?
    Ms. Costello. Well, you know, our reporting in the 
management alert you're referring to really does describe the 
conditions we saw when our inspectors were down there, what we 
haven't been able to do yet is assess the true causes of why 
we're seeing that. So we can talk about the fact that the 
overcrowding is dangerous. The prolonged detention is, you 
know, continuing. But we don't really know what is causing it. 
We simply know that the conditions are creating imminent risk.
    Mr. Connolly. Imminent risk?
    Ms. Costello. Yes.
    Mr. Connolly. Now, did you go down and visit it yourself?
    Ms. Costello. I did not, my chief inspector and her team 
did.
    Mr. Connolly. And did they find the U.S. officials in 
charge were doing the very best they could, they're just 
overwhelmed?
    Ms. Costello. They actually did find that CBP, Border 
Patrol agents, you know, were doing their level best to provide 
care. They found them to be professional. They found them to 
be----
    Mr. Connolly. Let me interrupt you there just a second. We 
heard testimony from my colleagues this morning who did go down 
there.
    Ms. Costello. Right.
    Mr. Connolly. That's not exactly what they observed. An 
agent walking with a toddler saying to children, which one of 
you was going to get this one, take care of this one? That's 
hardly humane care. Now, maybe it's misconstrued, maybe it was 
out of context, maybe it's an isolated incident, but when we 
add up the data, you know, putting 900 people in a facility 
made for 125 is asking for trouble. I mean, you know, in 
prisons, we have court orders that say you can't do that, but 
we're doing it with children on the border.
    Did you want to comment? You seem frustrated?
    Mr. Homan. I'm extremely frustrated.
    Mr. Connolly. Mr. Homan, I'm not calling on you, sir.
    Mr. Homan. Of course not. Of course not. This isn't about 
transparency.
    Mr. Connolly. This is my time. You're not at the border. 
You're not at the border right now, you're in a hearing room. 
It's my time. Ma'am.
    Ms. Mukherjee. Thank you very much. I want to respond to 
your observation about the inhumanity of this situation. The 
problem here is not the lack of money. The Department of 
Homeland Security has enough money to provide every child with 
a toothbrush, with soap, and a bed. The problem here is the 
position of this administration that this is not required for 
children. That is what this government argued before the Ninth 
Circuit of Appeals last month.
    Mr. Connolly. In other words----
    Chairman Cummings.
    [Presiding.] Time is expired.
    Mr. Connolly. Well, Mr. Chairman, I was interrupted and I 
think I'm entitled to 15----
    Chairman Cummings. I'll give you 30 seconds to ask the 
question.
    Mr. Connolly. Yes, thank you. I'm not making a statement--
I'm making a statement, not asking a question.
    Chairman Cummings. All right.
    Mr. Connolly. In other words, this is a matter of political 
will. This is a willful decision, it's not about a matter of 
being overwhelmed.
    Ms. Mukherjee. That is exactly right.
    Mr. Connolly. Which is the narrative they want us to 
believe.
    Ms. Mukherjee. That is right. And I also want to contest 
the data being put forward by Mr. Homan. We live in a democracy 
where there are checks and balances on what the executive 
branch says. The judiciary has considered the claims being made 
by Mr. Homan and his colleagues, and the Federal court has 
found that these claims are specious, questionable, and 
dubious. You can find that case in my written testimony on 
pages 31 and 32.
    Mr. Connolly. I thank you. The rule of law is often, for 
some people, an inconvenient thing. I thank you for your 
testimony.
    Chairman Cummings. Mr. Connolly, I apologize because I 
didn't--I forgot that you had been interrupted. I just wanted 
to make sure----
    Mr. Connolly. No problem, Mr. Chairman. Thank you.
    Chairman Cummings. Thank you very much. We will now go to 
Mr. Armstrong.
    Mr. Armstrong. Thank you, Mr. Chairman. So I just want to 
talk about the legal part of the Flores decision. What I want 
to talk about is the time line, because I think this is 
important and I think it's actually important for what is 
potentially going on in the Senate.
    DHS files a charging document, and then immigration court 
schedules a case. If an alien timely files for asylum and asks 
for no continuance and is ready to appear and ready to go 
within 30 days, which already, I mean, I've had in custody 
cases, we're talking optimistic, and what I would argue is 
often unrealistic time line, as this the resources, judges, 
immigration attorneys and all of those things.
    So if the judge denies the asylum claim, the alien has 30 
days to file an appeal. Then records, transcripts, audios are 
ordered, briefing schedules are ordered, I mean, this process 
takes 30 days?
    Ms. Mukherjee. Longer.
    Mr. Armstrong. So I'll just use 30, because I'll make it as 
streamlined as possible. Briefing schedules, another 21 days 
for detention cases, but as a matter of practice, BIA will 
grant a 21-day extension, and that's actually in their rules, 
right? So we're already at 132 days on a 20-day detention case, 
and that's before the board makes a decision, that's if there's 
no other delay tactics, which, I mean, I'm not saying delay 
tactics in a nefarious term. I'm a trial lawyer, so there are 
reasons why some of those things occur.
    So when we talk about having a 20-day detention thing, and 
this is what I'm going to ask Mr. Homan, and we have a court 
case that, at most, streamlined is at 132 days. Does that make 
any sense to you?
    Mr. Homan. No, it does not. Look, there's only one way. The 
absentia rates in immigration court are sky high, anybody can 
go to the Department of Justice EOIR website and see that. As a 
matter of fact, I think the Secretary just testified a couple 
weeks ago that out of the final orders to remove family units, 
89, 90 percent were in absentia, which means didn't show up. 
But the numbers speak for themselves.
    When I left ICE there was nearly 600,000 fugitives that had 
final orders issued by judges and did not leave, and many of 
them were in absentia. This secret is out, you bring a child 
into this country, you won't be detained, you'll be released, 
and many won't show up in court. And if they get a final order 
of removal, they won't leave. The numbers are the numbers, so, 
no, the system does not make sense at all.
    Mr. Armstrong. And we work toward--just what I'm saying is 
when you have a process that can far outweigh what we're 
required to do on a release process, and I'm not sure if these 
numbers are 100 percent right, so I'm going to ask. We went 
from last decade to about 1 in 10 of illegal crossings having a 
child with to now we're closer to 50 percent. I mean, that's--
these are what I'm hearing. So is that about accurate?
    Ms. Mukherjee. Mr. Armstrong, thank you. I'd love to 
clarify the misrepresentations in what Mr. Homan is saying. The 
data from the U.S. Government is very clear that when families 
are represented by counsel, they show up for their hearings 99 
percent of the time. When families participate in the ICE Case 
Family Management Program, which was canceled by this 
administration, they show up for their hearings 99 percent of 
the time.
    And the administration has admitted to the U.S. Supreme 
Court that the notices to appear that are given to immigrant 
children and families over the last several years, nearly 100 
percent----
    Mr. Armstrong. On day 21. On day 21----
    Ms. Mukherjee [continuing]. place where families need to 
appear.
    Mr. Armstrong. On day 21, what happens? On day 21, what 
happens? Mr. Homan, on day 21, what happens?
    Mr. Homan. If they are in ICE custody, they'll see a judge, 
hopefully within--in Fiscal Year 2014 and 2015 what we did, 
they saw a judge in about 40 days. That's why with this crisis 
going on right now, immigration judges need to surge on these 
groups coming across right now, the most vulnerable and having 
hearings quickly. The 800,000 backlog, let it sit there.
    Mr. Armstrong. But it's not just judges, right?
    Mr. Homan [continuing]. going on right now.
    Mr. Armstrong. You need judges, you need other personnel, 
where there are two different budgets. I mean, a judge--I've 
been in a lot of courtrooms all over the country, a judge 
doesn't run the entire courtroom, you need other staff, you 
need lawyers, you need support personnel, you need all of those 
people, correct?
    Mr. Homan. Correct.
    Mr. Armstrong. And without that, what is the actual 
physical process that is going on? I mean, why is--the question 
is, it's overwhelming and it's overwhelming to everybody, and I 
think we say that, but you have been down there, you have 
watched it, how would you describe it?
    Mr. Homan. What I'm saying is if you detain these families 
long enough in a family residential center to see a judge, 
you'll have a significant impact on what's going on. And 
despite the political grandstanding I saw earlier, this isn't 
about enforcing the law. If anybody in this panel don't like 
what's going on, then change the law, you're the legislature, 
we're the executive branch.
    And the reason when someone says--makes an allegation about 
children being mistreated, they're in an overcrowded facility 
because Congress' failure to supply the supplemental funding 
months ago. Don't blame the men and women wearing the uniform 
doing the best they can, it's outrageous. This is political 
theater at its best.
    Chairman Cummings. Mr. Krishnamoorthi.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman. Ms. Costello, 
I have a question for you just with regard to the appropriation 
of the additional funding to DHS. Congressman Chuy Garcia and I 
wrote a letter to the DHS Secretary saying that we wanted a 
transparent timeline for how this money should be spent, and 
what are the metrics for success in determining whether the 
money is spent in accordance with humanitarian purposes for 
which it was appropriated.
    So the first question I would ask you is, you know, in your 
opinion, or based on what you know about the agency, what 
should we be looking for and when? How quickly are the border 
conditions going to need to change and will change based on the 
appropriations process?
    Ms. Costello. Well, I wish I could answer you, but we don't 
have any reporting on that right now. But what I can tell you 
is that we're going to open work, in fact, we've opened work--a 
review of how that money is going to be spent, whether the 
Department is in a position to adequately deploy those 
resources, how to adequately plan to use them, and evaluating 
the effectiveness of what they're going to do with a portion of 
those resources.
    Mr. Krishnamoorthi. Okay. But how long is it going to take 
to get that report?
    Ms. Costello. It will take a while, I'm not going to lie. 
But the point is we're going to evaluate what's going to be 
done with those funds.
    Mr. Krishnamoorthi. I'm sorry, that's an unsatisfactory 
response. A while is not a definite timeline, and we have 
children who are suffering at the border. So I need a little 
more specificity right now.
    Ms. Costello. Well, sir, we just opened the work and just 
started, and the money has to be out there and being used for 
us to able to make any evaluations.
    Mr. Krishnamoorthi. Okay. Ms. Mukherjee, what can they do 
right now? Even before the money arrives, what should they be 
doing right now, and what should we be expecting?
    Ms. Mukherjee. Children should be released to their family 
members and their loved ones. Nearly 100 percent of children in 
ICE custody are released to their parents. More than 80 percent 
of children released from ORR custody are released to their 
family members. Children do not need to be in detention.
    Mr. Krishnamoorthi. I'm sorry, let's step back for one 
second, I just have limited time. Let's talk about CBP. I'm 
sorry, I just have just limited time. Let's talk about CBP for 
a second, okay. Because they need to release their children to 
HHS within 72 hours, okay. We have appropriated a lot of, like, 
$3 billion to HHS, to beef up their capacity on absorb folks 
from CBP, but in the meantime, what should they do, the people 
in CBP?
    Ms. Mukherjee. Children should be released from CBP now. 
During the week of June 17, there were 2,600 kids in CBP 
custody. Within two weeks, there were 300 children left. This 
isn't about money, this isn't about bed space, this is about 
cruelty and callous disregard for children's well-being. Media 
attention and the public outcry is what got thousands of 
children released from CBP custody.
    Mr. Krishnamoorthi. So we're saying that we can identify 
loved ones and relatives in the community who would be able to 
take on these children and house them temporarily until we can 
arrive at their final disposition. Is that what you're saying?
    Ms. Mukherjee. Exactly.
    Mr. Krishnamoorthi. Ms. Nagda, could you comment on that, 
please.
    Ms. Nagda. I was just going to point out to the 
Representative that under the prior administration, the 
government had what was known as the Family Case Management 
Program, which allowed families to be released as families from 
detention on an alternative to detention basis, which meant 
their release could be expedited quickly, and then they could 
live in the community, access supportive services, and come to 
court, which over 99 percent of them did.
    So there are options that would expedite the release of 
families from CBP custody as well.
    Mr. Krishnamoorthi. Okay. Ms. Maxwell, did you want to 
comment on this?
    Ms. Maxwell. No.
    Mr. Krishnamoorthi. Ms. Maxwell, that is HHS now. You folks 
are going to get the vast majority of the funding that has been 
appropriated within the last two weeks, about $3 billion coming 
to HHS, for the purposes of more long-term shelter for these 
children.
    Can you tell me what are going to be the milestones for 
success, and how quickly we can kind of beef up your capacity 
to deal with these children?
    Ms. Maxwell. Well, like Ms. Costello, I'm the IG for HHS 
and we are going to be providing oversight of how they spend 
that money. I know that HHS has already opened a new influx 
facilitate in Carrizo Springs that is operational at the end of 
June, and they are looking to ramp that up. So it's my 
understanding that HHS is already in the process of expanding 
their capacity, and we will be providing oversight to that 
expansion, and any other expansion that comes with the money 
that you appropriated.
    Mr. Krishnamoorthi. Thank you. Thank you, Mr. Chairman.
    Chairman Cummings. Thank you. Mr. Comer.
    Mr. Comer. I have to begin with clarifying something that 
Representative Tlaib said in her opening remarks when we had 
the portion of the hearing when the legislators were asked to 
give remarks for five minutes. Representative Tlaib, you were 
offended by the term ``illegal,'' and said we did not need to 
use the term ``illegal'' to describe people that were--certain 
people that were here in America, that no one was an illegal.
    But if anyone is in the United States of America 
unlawfully, then they are, in fact, an illegal. And I just want 
to clarify that because when I go home to Kentucky, that's 
something that offends the overwhelming majority of people that 
watch what goes on in Congress, specifically in this committee.
    And let me be clear, this is not a manufactured crisis. 
This is a problem that is getting worse every day. Yet this 
Congress continues to do nothing about the real problem at the 
border. What I have not heard today in this hearing is a real 
solution to the problem. Just letting people go freely when 
they cross the border illegally constituates open border. We 
cannot have that in America.
    And let me just quote Jeh Johnson in an op-ed, and he was 
President Obama's Secretary of Homeland Security. He said that 
we cannot embrace a policy, and I quote, ``not deport those who 
enter or remain in this country illegally unless they commit a 
crime.'' This is tantamount to a public declaration repeated 
and amplified by smugglers in Central America that our borders 
are effectively open to all. This will increase the recent 
levels of monthly apprehensions at our southern border about or 
more than 100,000 by multiples. End quote.
    He's right. President Obama's Secretary of Homeland 
Security is right about the real problem we have at the border. 
We have to get serious about this problem at the border. Mr. 
Homan, you're clearly an expert. What can Congress do to fix 
this problem?
    Mr. Homan. They need to close the loopholes in asylum to 
make them meaningful. They can change the TVPRA with children 
of Mexico--the children of Central America are treated the same 
way as children of Mexico, once it's ascertained they are not a 
victim of trafficking. They can be removed. They need to change 
the Flores Settlement Agreement.
    And I'm sitting here, and let me explain to you why I'm 
sitting here so frustrated. Because I'm the only one in this 
room that has worn a green uniform and been on that line. I'm 
the only one in this room that found dead aliens on a trail 
that were abandoned by smugglers, just left them there because 
they weren't worth any money anymore. I'm the only one in this 
room that stood in the back of a tractor trailer surrounded by 
19 dead aliens, including a five-year-old little boy that 
suffocated to death in his father's arms. I was there. And I 
saw and I smelled it, and it's terrible. And I still have 
nightmares to this day.
    It was in Phoenix, Arizona, when you couldn't pay the 
smuggling fees, you were tortured. One person was stabbed in 
the face 22 times because he couldn't pay a smuggling fee. Any 
we keep talking about open borders, abolish ICE, let's not 
detain anybody. Let's let everybody go. That entices more 
people to come. This isn't just about enforcing law, this is 
about saving lives.
    I found enough dead bodies in my day. I have a stack of 
dead bodies here. I have seen a lot of pictures today, but no 
one wants to see these pictures, because they're angel moms and 
dads. Each of them died here at the hands of people that 
crossed the border because we have an open border. The more we 
entice people to make this journey, 31 percent of women are 
being raped. Children are dying.
    And I said months ago, if we don't close the loopholes, 
more women will be raped, more children will die. It's like no 
one is listening. We can fix this. Sir, we can fix this. There 
are three things we can do to fix this. And Congress, if they 
don't like what ICE and CBP do, then do your job. Fix it. 
Congress has failed the American people for three decades I've 
been doing this job in fixing this. They would rather point to 
the men and women at Border Patrol, and men and women at ICE 
who have an American flag on their shoulder and serve their 
Nation.
    I'm extremely frustrated because what I've seen today is 
misleading the American people. People are dying, not in ICE 
custody. If you compare, people that have died in ICE custody 
to every state, Federal system, we got the lowest rate, we got 
a hell of a lot lower rate than the city of New York, but no 
one wants to talk about us. We need to save lives, we need to 
secure our borders. Nothing wrong with this. There's nothing 
wrong with a secure border.
    Mr. Comer. I can assure you, Mr. Homan, this side of the 
aisle is serious about securing the border. The President is 
serious about securing the border. And I hope my colleagues on 
the other side of the aisle will get serious about securing the 
border so we can have a real solution to the problem that we 
have at the southern border. Mr. Chairman, I yield back.
    Chairman Cummings. Thank you very much.
    Ms. Hill, our vice chair.
    Ms. Hill. Thank you, Mr. Chairman.
    Mr. Homan, I want to clarify a couple of things, because 
you mentioned earlier that no one's been to the law enforcement 
memorial.
    I'm from a law enforcement family, 100 percent from a law 
enforcement family, and I represent Border Patrol agents, and I 
represent agents that work for ICE. And I don't believe that it 
is the agents that are solely responsible for any of this 
that's happening. I don't think that that's the case. And as 
far as the law enforcement memorial goes, I was there just a 
few weeks ago, because I have family that's on that.
    So I want you to know that the questions that I'm asking 
have nothing to do with blaming the agents who are working on 
the front lines. But I do think it's important that we talk 
about the policy, and the policy that is still problematic, 
because I believe that what we do have, this crisis of people 
who are coming here, I believe, honestly, that they're coming 
out of desperation. They're hugely being taken advantage of by 
criminals, by traffickers, by people who are willing to leave 
them to die anywhere.
    That is all true, we're not arguing there. But there are 
policies in place here, within the United States of America, 
that go against our values, and one of those is family 
separation.
    So I want to talk to you about your beliefs on family 
separation. And you've been on the record defending President 
Trump's policy of separating families at the border many times. 
Can you clarify how you feel about that today?
    Mr. Homan. No, I cannot. As you recognize in your report 
here, it's under litigation. I'm a part of that litigation. And 
I've been instructed by the attorneys that I'm not allowed to 
speak about that, other than in a courtroom setting, which this 
is not.
    Ms. Hill. Okay. So that's fine.
    So you have said, though, that you believe that families 
should be held indefinitely until they have a court hearing.
    Mr. Homan. Well, court hearing and indefinitely are two 
different things. I think they should be held long enough to 
see a judge in a family residential center.
    Ms. Hill. Family residential center?
    Mr. Homan. It worked in Fiscal Year 2014 and Fiscal Year 
2015.
    Ms. Hill. Okay. But you cannot comment at all about family 
separation right now?
    Mr. Homan. Well, I was the Director of ICE. If anybody was 
separated, they're separated on the border by another agency.
    Ms. Hill. Okay. Well, you have been on the record many 
times defending that policy.
    But I also want to point out that on June 14, President 
Trump told ``Fox & Friends'' that you, Tom Homan, will be 
returning to the Trump administration as the border czar. Is 
that true?
    Mr. Homan. I have not accepted any position with the 
administration.
    Ms. Hill. Well, yes, as of four days ago, you said that you 
haven't accepted a position yet. But you also said that: If I 
can help this President, I certainly will.
    Mr. Homan. If I can help my country, like I've done for the 
last 34 years, I come back from retirement once, I'm not going 
to say never say never.
    Ms. Hill. You didn't say help my country. You said help 
this President.
    Mr. Homan. Well, helping this President is helping my 
country. He's the President of the United States.
    Ms. Hill. Okay. Is it true that you are a FOX News 
contributor and have been since your retirement?
    Mr. Homan. Yes.
    Ms. Hill. Okay. And is it also true that on your LinkedIn 
profile, one of your key achievements was that you removed 
369,000 aliens from the United States?
    Mr. Homan. Probably.
    Ms. Hill. Okay. So I want to return back to the family 
separation issue. And even though a Federal court ordered 
separations to stop last June, the Trump administration has 
separated at least 700 additional children over the last year. 
And I believe I heard one of our witnesses say that that number 
is even higher.
    This administration claims that it is only separating 
children under narrow exceptions to the court's order, when 
there's a specific concern for child safety or certain criminal 
history issues.
    Ms. Nagda, based on your experience, are all of those 
additional separations necessary to protect children?
    Ms. Nagda. No. It has been our experience that in the vast, 
overwhelming majority of family separation cases, those 
separations were unjustified and unnecessary, either to protect 
the safety of the child or anyone else.
    Ms. Hill. Has your organization worked with children 
separated since last June?
    Ms. Nagda. We have worked with more than 120 children who 
were separated after the policy ended.
    Ms. Hill. And, Ms. Mukherjee, you've shared a number of 
stories about how you've spoken with children who have been 
separated from their parents since the end of the zero-
tolerance policy. Is there anything you would like to add or to 
quantify those ongoing separations?
    Ms. Mukherjee. The ongoing separations of children from 
their parents and family members continue every day and I have 
here emails from Mr. Homan, including his name, with him having 
authorized family separations, including of a child and mother 
who I represented, who were granted asylum, who are bona fide 
refugees in the United States.
    Ms. Hill. So I have a couple of other examples that we've 
seen in public court filings. For example, in one case, an 
arrest warrant from 10 years ago, which itself was based on 
mistaken identity, used as the basis to separate a child. 
Another parent was separated from his three daughters due to 
his HIV status. And to me, this appears that the administration 
is trying to circumvent the court's order and separate children 
from their parents all over again.
    Are all of these separations required by law in any way, 
shape, or form?
    Ms. Mukherjee. No. All of these separations are contrary to 
our Constitution, our Federal laws, our regulations, the TEDS 
standards that govern how CBP is supposed to treat children and 
families.
    Ms. Hill. So these continued separations, as far as I'm 
concerned, are a complete outrage and are contrary to the June 
2018 court order ending zero tolerance. The Trump 
administration must stop these unnecessary separations, and I'm 
seriously concerned that the potential new border czar believes 
that these are good policy.
    I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Jordan.
    Mr. Jordan. Mr. Homan, the actions you took when you were 
Director of ICE were entirely consistent with the law of the 
land, weren't they?
    Mr. Homan. Yes. When someone is prosecuted for a crime, the 
child can't go to jail with the parent. That happens to 
American families every day.
    Mr. Jordan. Yes. And if we, as you said I think earlier, if 
we don't like the law, last time I checked, it's the folks 
sitting up here got to change it.
    Mr. Homan. Yes.
    Mr. Jordan. And you've offered, I think, no more than four 
times, three changes to the law that would help the situation. 
Is that right?
    Mr. Homan. Yes, sir.
    Mr. Jordan. Maybe make it a fifth time. Can you say it a 
fifth time for this group? Just, you know, because again, we're 
the ones that have to change the law. So give us that 
recommendation a fifth time, the three things that we've got to 
do.
    Mr. Homan. If we would close the loopholes in the TVPRA, 
where children who are sent to America are treated the same as 
children in Mexico; if we would change the Flores settlement 
agreement so we can actually detain families in family setting 
long enough to see a judge and plead their case; and if we can 
change the rules of asylum so it makes more sense, so 90 
percent of the people who don't pass the first interview, a lot 
fewer are passed in front of a judge, those three things would 
mean a big--would make a big difference on the border and 
decrease the illegal entry.
    Mr. Jordan. Because those three things go to the heart of 
the matter. They go to the incentive. Is that right?
    Mr. Homan. They go to incentive, along with the other 
things, such as talking about abolishing ICE, having no 
detention, free education.
    Mr. Jordan. Yes.
    Mr. Homan. Free medical care. Citizenship for those who are 
here illegally.
    When you keep offers and incentives for people to come--
sanctuary cities--come to this country, you'll be protected 
from ICE, as long as you keep having this----
    Mr. Jordan. Those kind of statements----
    Mr. Homan [continuing]. people who are vulnerable people 
are going to keep trying to come.
    Mr. Jordan. Those kind of statements made by Democrats in 
the U.S. Congress or in positions of influence in this country, 
they have an impact, don't they?
    Mr. Homan. They have a significant impact.
    Mr. Jordan. When a Member of Congress says abolish ICE, 
when another Member of Congress says abolish DHS, when the 
Speaker of the House says walls are immoral, when the person 
who gave the State of the Union response to the President's 
State of the Union says she's okay with noncitizens voting, 
that all has an impact, doesn't it, just like the law that 
you're sworn to uphold and impact and do, when you're the 
Director of ICE?
    Mr. Homan. It has a significant impact. And if this would 
have been fixed years ago, we probably wouldn't have seen zero 
tolerance. We wouldn't see the conditions on the border today.
    Mr. Jordan. But because the laws haven't been changed, 
because of the statements that have been made, there was a 
crisis, there is a crisis on the border. And that just didn't 
happen yesterday.
    You think about this. There was a crisis. The 
administration asked for help. Democrats say it's contrived, 
it's manufactured, it's fake, it's not real. Then, when the 
crisis, the real crisis, gets actually worse, the Democrats 
blame the administration for the very crisis they helped create 
by the things they said and the fact they won't change the law. 
But somehow it's your problem. Somehow it's the President's 
problem.
    And we have Ms. Costello, who went down there, her team 
went down there and looked this all over, the Inspector 
General, said there is some concerns that she has and the cause 
of the concerns they're trying to ascertain.
    Now, she also said agents are doing--I think your statement 
was agents are doing their level best. Is that right, Ms. 
Costello?
    Ms. Costello. That's the experience of our inspectors at 
their visits.
    Mr. Jordan. So the Inspector General goes down there with 
your team, and you conclude the agents, the people that Mr. 
Homan used to represent, are doing their darned best they can 
do, but they're overwhelmed.
    And then you also said in your statement, in your answers a 
few minutes ago, you're trying to ascertain the cause. Well, 
that's pretty simple to figure out the cause. It's the numbers. 
In October, 60,000 apprehensions and inadmissibles on the 
border, October of last year. You know what it was in May of 
this year? 144,000.
    We know the cause: They're all coming. And they're coming 
because things the other side's saying and the fact we won't 
change three fundamental things in the law.
    And it also might help, Mr. Homan, it also might help, 
because these are the ones that--these are apprehensions, these 
people are presenting themselves at ports of entry--it also 
might help if we build a border security wall, right? Instead 
of having the Speaker of the House say they're immoral, even 
though there's one in her state, it might actually help if we 
built the border security wall that the American people voted 
this President in office to do. It might actually help if we 
did that. Would you agree, Mr. Homan?
    Mr. Homan. Absolutely. Every place they've built a border 
barrier, every single place they've built a border barrier, 
illegal immigration decreased.
    Mr. Jordan. Yes. It would help with some of the tragic 
things that we have heard about, tragic situations that we have 
heard about the last couple days, this entire week in this 
committee, that no one wants to see happen. The young mother 
who lost her daughter, it's tragic. No one wants those. But if 
we did the things you're talking about, we could help avoid 
some of those kind of incidents from happening in the future. 
Is that right, Mr. Homan?
    Mr. Homan. Yes. If I could respond to that----
    Mr. Jordan. And you're the guy--you're the guy who's lived 
it, breathed it, felt it, managed it. You know more than--you 
have more expertise in this area than anyone in this room. Is 
that right?
    Mr. Homan. I believe so.
    Mr. Jordan. I know so.
    Mr. Homan. But let me respond to the one child that died as 
tragic.
    Mr. Jordan. Sure is.
    Mr. Homan. But as long as we're showing a lot of pictures, 
if I could have just 30 seconds.
    Here's a picture. Her name was Serenity. She was nine 
months old--nine months--raped and murdered by an illegal alien 
because of open borders policy.
    Here's Alana, she was five years old, raped repeatedly and 
murdered by an illegal alien.
    Here's Louise Solowen, she was 93, multiple rapes and 
murdered by an illegal alien.
    Here's a 16-year-old.
    Here's a law enforcement officer.
    I got hundreds of these in my desk drawer.
    So I've seen tears from people today, and I understand 
that, it's tragic when anybody dies. But let's not remember--
let's forget the Angel Moms and Dads who I've all met and got 
to know, their children died, and they're separated forever. 
It's not a matter of location. They're dead.
    And a secured border would help prevent some of this. 
Sanctuary cities does not help this. Sanctuary cities, this 
will increase because of the push of sanctuary cities, come to 
our country, we'll protect you. You can even commit a crime, be 
in our county jail, we're not going to let ICE into the jail.
    Recidivism rates, anybody can look them up. Fifty percent 
reoffend the first year, up to 75 will recidivate within 5 
years. They're in the country illegally in violation of Federal 
law. They're locked up in a county jail. Let us have access to 
them and do our job.
    Chairman Cummings. Thank you very much.
    Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair.
    You know, I would just ask Mr. Homan--like my colleague 
said, Ms. Hill, I come from a law enforcement family, too--and 
I would just ask--and you made some comment about, we want to 
do away with ICE. I never said I wanted to do away with ICE, 
and I just feel like there's a lot of generalizations going on.
    And, you know, we talk about, oh, we're inviting people in 
and making it easier. My district is urban, suburban, and 
rural, and I have 1,200 farms in my district, and I know a lot 
of my farmers are Republican, and they've told me that they 
have migrants working for them, undocumented folks working for 
them.
    So if we would have done better with improving immigration 
or making a pathway and where there was a bipartisan Gang of 
Eight in the Senate, and we didn't even entertain the bill in 
the House, when we had a Republican Speaker.
    So we can always say there's things that could have been 
done, and I can think of things, since I've been here in my 
last six years, that could have been done that haven't been 
done.
    And I know people that are Republican, just like I know 
people that are Democrat, that feel like we need to do a much 
better job. So, you know, all this condemning is very 
interesting.
    But anyway, I wanted to focus in on the Homestead shelter 
in Florida. Homestead is the Nation's largest facility to house 
and care for immigrant children. It is run by a not-for-profit.
    Ms.--and I want to say your name correctly--Mukherjee, you 
testified you interviewed children at the Homestead facility 
and that you were, quote, concerned about the numerous 
violations of the Flores settlement agreement. Can you describe 
what your concerns are and what the conditions are?
    Ms. Mukherjee. Homestead is a facility that houses 
thousands of children, more than 2,000 at this point, and it's 
set to expand to more than 3,000. It is an environment that is 
not conducive to children's well-being. Children get lost in 
the cracks there.
    When I interviewed children there in March 2019, my 
colleagues and I found a 14-year-old boy there who was legally 
blind. He weighed 66 pounds and was 4'9'' tall. He was an 
indigenous language speaker. His first language is Opteko (ph). 
He had been detained there 120 days.
    We subsequently received incident reports. We were 
extremely concerned about his well-being. So we requested his 
full file. We learned that there were documented incidents, 
multiple incidents, where he had been assaulted, including 
being punched in the stomach by other children, punched in the 
groin.
    I called his father. I was worried that maybe his father 
didn't have the resources to take care of a child with a 
disability. But his father had been desperately trying to 
reunite with this child. It took us threatening to sue to get 
this child out of Homestead.
    Ms. Kelly. Okay. Ms. Maxwell, is the Office of Inspector 
General investigating conditions at this facility?
    Ms. Maxwell. Indeed. I mentioned we went to 45 facilities 
last summer, and Homestead was one of them. Since then, we've 
been down there several times, offering technical assistance 
and outreach to that facility, and we continue to provide 
oversight of Homestead.
    Ms. Kelly. How can they stay open with reports like this?
    Ms. Maxwell. Well, the work that we did from our site visit 
is still ongoing. So I'm going to have to pause and wait until 
that work becomes public. At that point, I'd be happy to brief 
you and your staff about what we found there, as well as what 
we found across the country. We looked at a host of safety 
issues that affect children in HHS-funded facilities.
    Ms. Kelly. And, Mr. Chair, I'd like to enter this article 
for the record, which is by Monique Madan.
    Chairman Cummings. Without objection, so ordered.
    Ms. Kelly. The article explains the story of a 15-year-old 
boy who was stripped from his family by CBP during a traffic 
stop and transferred to ORR custody and treated as an 
unaccompanied minor. This child has lived in the United States 
since he was nine months old. Lawyers say they have represented 
at least 20 other children at Homestead who have been torn from 
their families, children that have been living in the U.S. for 
nearly their entire lives.
    So as I said, I'd like to enter into the record the 
statutory definition of an unaccompanied minor also, which 
includes there's no parent or legal guardian in the United 
States, and no parent or legal guardian in the United States is 
available to provide care and physical custody. This 15-year-
old, by our own statutory definition, is not an unaccompanied 
minor.
    Ms. Costello, are you aware of this practice?
    Ms. Costello. We are aware of separations, but currently we 
have no public reporting on any of that, those issues that you 
described.
    Ms. Kelly. And what is your policy when entering 
undocumented children in the interior U.S.?
    Chairman Cummings. The gentlelady's time has expired, but 
you may answer the question.
    Ms. Costello. So as the Inspector General, we provide 
oversight. We're not responsible for implementing policy or 
creating policy in any way.
    Ms. Kelly. Can I just make one more?
    I'm going to request that you open an investigation into 
this immediately.
    Chairman Cummings. Ms. Kelly, I just want to make clear, 
you were trying to admit one document or two?
    Ms. Kelly. Two, I'm sorry.
    Chairman Cummings. Oh, I didn't----
    Ms. Kelly. The article.
    Chairman Cummings. Okay. Fine.
    Ms. Kelly. And then the definition of unaccompanied minor.
    Chairman Cummings. Without objection, so ordered, to both 
of those documents.
    Chairman Cummings. Ms. Tlaib.
    Ms. Tlaib. Thank you, Chairman. I really do appreciate this 
hearing.
    Thank you all so much for being here.
    I believe in the importance of whistleblowers--you know, 
sometimes we call them truth tellers--especially to this 
committee. We know that employees have decided to stick to 
their livelihood--decided to stick out their livelihood and 
their way of life and put courage and their country first.
    And to the chair, before I begin questioning, I would like 
to submit two documents. The first is a July 17, 2018, letter 
to Senate Whistleblower Caucus chairs and a comment submitted 
on the proposed rule by Immigration and Custom Bureau--Customer 
Bureau--on the----
    Chairman Cummings. Without objection, so ordered.
    Ms. Tlaib. Thank you. Dr. Scott--Doctors Allen and 
McPherson are two whistleblowers that serve as subject matter 
experts for DHS. They tried to warn your office, Ms. Costello, 
the migrant children were going to die in custody. Does that 
sound familiar at all?
    Ms. Costello. We get a number of complaints every year. 
That one, in particular, is not ringing any bells right now.
    Ms. Tlaib. They had warned--they had wrote, quote, ``We 
warned DHS that a migrant child could die in custody,'' yet 
these whistleblowers were completely ignored by the office. 
Their lawyers tell us that no one ever responded to their 
concerns at all, despite attorneys' multiple attempts to 
connect with you.
    Ms. Costello. So as you said, we take whistleblower 
concerns extremely, extremely carefully. We take all of those 
cases and allegations into consideration. I'm not familiar with 
the issue that you're talking about, but my office can get back 
to you with some information.
    Ms. Tlaib. I do appreciate that.
    The next thing I want to talk about is, you know, we 
brought forward obviously children, and there's a lot of back-
and-forth, about--you know, there seems to always be this 
sense--and maybe because I'm new--but a sense of who to blame, 
where did it start, what the cause is.
    The problem is, the crisis is here, and everybody wants to 
stick in how we got here. But we're here now, and the 
responsibility is on us to address it. And there is a sense of 
urgency, on at least my part, to addressing this.
    But one of the things that really was profound was when one 
of those CBP agents took me aside, even though all on their 
trucks, if you look at any of the trucks anywhere, there's a 
term, it goes, honor first. Are you familiar with that, anyone? 
Mr. Homan? It says, honor first.
    And I thought it was spectacular. I said, ``Oh, what does 
this mean?'' And they kind of looked and said, ``Exactly what 
it says.'' But there's also this sticking together, not telling 
on each other, this kind of culture.
    But a couple, three different agents, one said, ``Stop 
sending money, it's not working.'' He literally said that to me 
in a whisper. One, you know, very tearful said, ``You know, we 
weren't trained to do this. I am not a social worker, nor a 
medical care worker.'' And another very courageously--again, 
this is somebody that many of my colleagues would be surprised 
to know said this to me--but he said the separation policy 
isn't working.
    The morale has been, out of all law enforcement offices, 
the morale of the agents in CBP are among the lowest, and 
suicide has actually increased over a hundred agents, even when 
you were there, Mr. Homan. And you know, we talk about the 
dehumanization of the children and so forth. Well, we also 
understand there is a number of stress. And I can actually feel 
it from you, Mr. Homan, right now, like--but I also felt this 
hesitation even when I was shaking every single person's hand 
up there, that you even hesitate to shake my hand.
    And I wanted you to know, I paused and I thought, you know, 
did I do anything for you to pause and not shake my hand, even 
though I was telling the truth, what I saw.
    And I'm not blaming the agents. I'm not blaming. I'm 
blaming the broken immigration system, just like you are. And 
we have to decide and have courage in this Chamber whether or 
not we proceed in fixing it. And if it's your route of closing 
borders and all that, great, let's debate that.
    But one of the things I'm taken aback is the average of 
children is seven years old that we're separating at the 
border. Average age is seven years old. The trauma we're going 
to create is going to be a generation that I don't think we're 
going to ever be able to truly address.
    And, Mr. Homan, I know you can't talk about it, but I agree 
with that agent that separation policy isn't working to what 
we're doing there, and we know that the administration, and you 
may not be able to speak about it, was trying in ways to 
prevent people from coming. But it didn't.
    It wasn't about asylum. I'll tell you right now, that man 
that was from Brazil, when I told him in English--and he 
understood a little bit, because his Portuguese--his Spanish, 
he didn't have any--he didn't speak Spanish, so he had a lot of 
issues of language.
    And I'm sorry, Mr. Chairman, just--do you know he--I told 
him, ``You know they might separate you from your child. He 
said, ``No. No, no, no. No, no, no, no. That can't happen.'' 
And I said, ``But that's the policy right now that we have, is 
that you might not see your 14-or your eight-year-old daughter 
anymore.''
    And I just can't sit by and say that is okay. The one thing 
we can do in this Chamber is we can agree the separation policy 
needs to stop and that more money toward supporting the 
separation policy needs to stop, because I don't want an agent 
to kill themselves. I don't want a tearful agent who is in top 
level, not one that is even at the border, that said, ``Put me 
at the border,'' he said, ``that's where I belong, not here 
with these children.''
    Thank you, Mr. Speaker.
    Chairman Cummings. Thank you very much.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    I want to ask everybody to think of a busy emergency 
department, a busy emergency department in an inner city, and a 
massive natural disaster occurs, and there are hundreds of 
patients now flooding that emergency department. They're 
treating people in the hallways. They're treating people in the 
parking lot. It is a crisis, a massive crisis, there are 
patients everywhere.
    It's not the doctor's fault that patients are everywhere. 
It's not the nurse's fault that the crisis has suddenly 
overwhelmed that emergency department. And it is ridiculous to 
assert that.
    The problem is, is that the pipe isn't big enough. You can 
only flow so much water or so many patients through an 
emergency department if there's 30 beds or 35 beds or 40 beds. 
And nobody builds emergency departments for thousands of 
patients. You can't do that.
    And when the crisis happens, it's not the doctor's fault. 
It's not the nurse's fault. It is the diameter of the pipeline.
    Well, how do you get the pipeline to have a bigger 
diameter? Well, you have to have more beds, right? You have to 
have more space. You have to have more money.
    So for months, we've been asking for budget. And we've got 
people sitting on this committee who voted against money to go 
to the problem--in fact, some people want to close the 
Department of Homeland Security entirely--yet at the same time 
screaming: We need more resources on the border. How ridiculous 
is that? It's theatrics. It's just theatrics. That's all it is.
    In the 1960's, the progressive liberals called our soldiers 
baby killers. Remember that? They came home from Vietnam and 
were spat on. And now CBP is being called Nazi concentration 
camp operators. How insane is that, how ridiculous. And it 
harkens back to a dark day in America when we called our 
soldiers baby killers, when, in fact, they were just doing what 
the country had asked them to do. Theatrics.
    Let me begin by setting the record straight. This notion 
that Republicans and conservatives are somehow unconcerned 
about the plight of people is just wrong and unfair.
    I run two free healthcare clinics in Tennessee out of my 
own pocket, and I get, you know, people who are progressive 
liberals telling me, ``We need more taxes to take care of more 
people.'' And I say, ``Well, come volunteer in my clinic and 
help these people who are in need if you really care.''
    You know how many have taken me up on it in four years? 
None. Not a single one has come and volunteered in my free 
healthcare clinics, while I've offered it and offered it. 
Theatrics.
    As Politico reported in an article last month, the U.S. 
Border Patrol apprehended nearly 85,000 family members in May, 
a 44 percent increase over the prior month, a historic high. 
For comparison the Border Patrol apprehended approximately 
107,000 family members in all of 2018.
    We've had a natural disaster and the ER is overwhelmed. 
They need resources. They need Congress to do our job.
    But what does the left want to do? Oh, we didn't 
acknowledge it was a crisis when we probably should have, so 
let's just blame President Trump. We'll say he's the one 
putting these kids in cages. Oh, wait, that picture was from 
2015. Obama was President. Right. We didn't recognize it was a 
crisis. We tried to play it off as not one. And oh, now we've 
been caught, and oh, well, let's just blame the President. 
Theatrics.
    Listen, it's time for Congress to do its job and get the 
resources to these men and women who are on the border, taking 
care of this crisis.
    Mr. Chairman, I thank you for the opportunity to share my 
perspective, and I yield my time back.
    Chairman Cummings. Before I go to Ms. Ocasio-Cortez, let me 
say this. I think we all, on both sides of the aisle, I think 
we need to be careful about how we talk about the motives of 
our colleagues. I believe that everyone is operating in good 
faith, and I just want us to be very careful with that.
    With that, Ms. Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    Earlier my colleague from Maryland, Mr. Raskin, asked the 
panel, how many people here believe that child separation is an 
effective policy in deterrence? And no one on the panel raised 
their hand. I just wanted to note that for the record, Mr. 
Chair.
    I wanted to ask a question from Professor Mukherjee. Is the 
United States violating--or violated--human rights agreements 
set by the United Nations in a family separation policy?
    Ms. Mukherjee. Yes. International law is clear that family 
unity should be prioritized.
    Ms. Ocasio-Cortez. So we, as members of the United Nations, 
signed on into an international human rights agreement, saying 
very clearly that family separation is a violation of 
international human rights, and then we pursued a policy that 
violates human rights.
    You know, Mr. Chair, I was looking, how did we get to this 
point? How did we get to this point, where we take children out 
of mothers' and fathers' arms? And, you know, it dated back--
family separation, the way that we have seen it, where we take 
children away from their parents without due process, began 
last year under Secretary Kirstjen Nielsen. But I had to dig 
further, and our staff dug further. But where did this start 
within the administration? She implemented it.
    And we found a memo, it dates back to April 23 of 2018, 
where there was an official recommendation to, quote, ``pursue 
prosecution of all amenable adults who cross our border, quote, 
'illegally,' '' even though this applied to legal asylum 
seekers in practice, ``including those presenting with a family 
unit, between ports of entry,'' in coordination with DOJ.
    Here is the memo that I would like to submit to the 
congressional Record.
    Chairman Cummings. What is the date of that?
    Ms. Ocasio-Cortez. It is a memo--memorandum for the 
Secretary from Homeland Security.
    Chairman Cummings. Date?
    Ms. Ocasio-Cortez. April 23, 2018, subject, ``Increasing 
prosecutions of immigration violations.''
    Chairman Cummings. Without objection.
    Ms. Ocasio-Cortez. And so I looked at this memo, and it 
seems like this is the source of it, and it seems as though, 
Mr. Homan, that you are the author. It says here, from 
yourself, Kevin McAleenan, and Francis Cissna. Is this correct? 
Did you sign the memo?
    Mr. Homan. I'd have to see what you----
    Chairman Cummings. Give him----
    Ms. Ocasio-Cortez. I'd be happy to provide it. And we'll 
provide it over. But I would like to note that here, it says 
the official recommendation, there were three different options 
presented. The third included the option for family separation: 
This initiative would pursue prosecution of all amenable 
adults, including those presenting with a family unit.
    Mr. Homan, your name is on this. Is this correct?
    Mr. Homan. Yes, I signed that memo.
    Ms. Ocasio-Cortez. So you are the author of the family 
separation policy?
    Mr. Homan. I am not the author of this memo.
    Ms. Ocasio-Cortez. You're not the author, but you signed 
the memo?
    Mr. Homan. Yes, a zero-tolerance memo.
    Ms. Ocasio-Cortez. So you provided the official 
recommendation to Secretary Nielsen on family--for the United 
States to pursue family separation?
    Mr. Homan. I gave Secretary Nielsen numerous 
recommendations on how to secure the border and save lives.
    Ms. Ocasio-Cortez. But it says here that you--you gave her 
numerous options, but the recommendation was option three, 
family separation.
    Mr. Homan. What I'm saying, this is not the only paper 
where we had given the Secretary numerous options to secure the 
border and save lives.
    Ms. Ocasio-Cortez. And so the recommendation--of the many 
that you recommended--you recommended family separation.
    Mr. Homan. I recommended zero tolerance.
    Ms. Ocasio-Cortez. Which includes family separation.
    Mr. Homan. The same as it is with every U.S. citizen parent 
that gets arrested when they're with a child.
    Ms. Ocasio-Cortez. Zero tolerance was interpreted as the 
policy that separated children from their parents?
    Mr. Homan. If I get arrested for DUI and I have a young 
child in the car, I'm going to be separated. When I was a 
police officer in New York and I arrested a father for domestic 
violence, I separated that father from----
    Ms. Ocasio-Cortez. Mr. Homan, with all due respect, legal 
asylees are not charged with any crime.
    Mr. Homan. When you're in the country illegally, it's a 
violation of eight United States Code 1325.
    Ms. Ocasio-Cortez. Seeking asylum is legal.
    Mr. Homan. If you want to seek asylum, go through the port 
of entry, do it the legal way. The Attorney General of the 
United States has made that clear.
    Ms. Ocasio-Cortez. Okay. Mr. Chair, the memo is submitted 
to the record for review.
    Inspector General Costello, one last thing. Is there a 
record--based on reports through the year and in our hearing 
earlier this year there was--we spoke with Ms. Juarez, a mother 
who lost her child due to inhumane conditions in the 
facilities. We learned that there is no accurate record and no 
policy being held of people who are pregnant and people who 
endure miscarriages.
    Is there a record of who enters and leaves these 
facilities?
    Ms. Costello. I'm not familiar with the instance you're 
talking about, but I do believe the facilities keep custody 
logs and logs, but I'm not familiar with the incident you're 
talking about.
    Ms. Ocasio-Cortez. And where would we find those records?
    Ms. Costello. I believe all the facilities keep them 
onsite, CBP and ICE facilities.
    Ms. Ocasio-Cortez. And if you believe that the records are 
not accessible--or if we find that the records are not 
accessible, do you believe the committee should seek to request 
records from DHS on the location of children and those that are 
detained?
    Ms. Costello. Well, we would never opine about what the 
committee would request and not request, so----
    Ms. Ocasio-Cortez. Thank you very much.
    Chairman Cummings. Thank you very much.
    Ms. Pressley.
    Ms. Pressley. Thank you, Mr. Chairman.
    I'm very proud to represent and to call the Massachusetts 
Seventh my home. It is home to--40 percent of our residents are 
immigrants. And today those residents, those families, are 
living in constant fear. At the hands of this administration, a 
fundamentally broken immigration system has truly been 
weaponized.
    On Wednesday, we heard heartbreaking testimony from Yazmin, 
a mother from Guatemala who lost her 19-month-old baby girl 
Mariee after pleading with ICE officials to provide her baby 
with adequate medical care and medicine. I have no shortage of 
fury for this injustice, this tragedy, this callousness. But in 
the time allotted to me as a Member of Congress, I would 
instead like to focus on trying to save a life.
    Mr. Homan, I agree with you, there has been much too much 
death. So in that vein, I want to enlist your partnership, your 
partnership in saving a life.
    Right now, ICE is depriving an asylum seeker, Mariana, of 
adequate medical care. Mariana fled state-sponsored, gender-
based violence in Angola and is being held in Laredo, Texas, at 
a facility operated by CoreCivic, a private, for-profit 
detention facility. Her five-and seven-year-old babies were 
separated from her and sent thousands of miles away to Chicago.
    A doctor at the detention center said she is at risk for a 
hysterectomy if she is not released and receive the proper 
medical attention. Despite notifying detention center staff of 
her serious health condition, they refuse to grant her access 
to adequate care. Earlier this week, Mariana lost 
consciousness. Her lawyers and her family are desperate to get 
her medical care.
    So, Mr. Homan, in your expert view, can you instruct and 
advise me how to elevate Mariana's case and ensure that she 
gets the medical care she needs?
    Mr. Homan. Well, on your first comment about the 
callousness of ICE medical, let me be clear on that case that 
was talked about yesterday. I remember that case. In 20 days of 
detainment, they had 10 medical appointments--10--and the 
mother didn't go to two of them.
    Ms. Pressley. Mr. Homan, I'd like to reclaim--this is my 
time, I'd like to reclaim my time right now.
    Mr. Homan. You can't make a statement about callousness of 
medical care----
    Ms. Pressley. Mr. Homan, as tragic as--but we can all agree 
that it was a tragedy that that baby died. Okay? I don't want--
I'm not talking about the past, I'm talking about the present, 
and we have an opportunity to save a life. And I'm asking you, 
in your expert opinion, what should be done and how can we 
elevate----
    Mr. Homan. I am not going to let your comment about 
callousness stand without a response. This is about 
transparency to the American people, is it not?
    Ms. Pressley. Mr. Homan, a woman's life is in jeopardy----
    Mr. Homan. I'm telling you, that mother was given 10 
medical appointments. And she, as required by law, she will be 
released after 20 days.
    Chairman Cummings. Hold up, hold up, whoa, whoa, whoa, 
wait, wait a minute, wait a minute. Let me just understand 
what's going on here. We're talking about two cases. Is that 
right?
    Ms. Pressley. Yes. I was referencing the tragedy of a baby 
that we've already lost.
    Chairman Cummings. Right.
    Ms. Pressley. There is a woman in care right now----
    Chairman Cummings. You're talking about that----
    Ms. Pressley [continuing]. who lost consciousness.
    Chairman Cummings. Okay. That's what I--I just wanted to 
make sure I was clear.
    Ms. Pressley. And I'm just seeking his expert counsel on 
what is the procedure and what can be done to elevate this 
woman's case, to get her the medical attention that the 
detention doctors have said are essential to keeping her 
healthy and alive.
    Chairman Cummings. Very well.
    Let me just ask you real quick, so--and tell you what you 
can do, too, to help in that situation.
    Then we'll restart your time.
    All right, go ahead. Sir.
    Mr. Homan. Well, to make a statement about a baby that 
didn't die in ICE custody----
    Ms. Pressley. Reclaiming my time. Let me state the question 
again.
    Mr. Homan. Is this hearing for transparency to the American 
people or not?
    Ms. Pressley. Reclaiming my time. Mr. Homan, I am not 
revisiting the past.
    Mr. Homan. Of course not.
    Ms. Pressley. I've offered it for context. And I said it 
was a tragedy and we can all agree there have been far too many 
tragedies. You said there's been a lot of death. Let's stop the 
death.
    Mr. Homan. You can't blame the first death on ICE.
    Ms. Pressley. We have an opportunity to save a woman's 
life. You are an expert. I am asking you----
    Mr. Homan. Contact--contact--contact Acting ICE Director 
Matt----
    Ms. Pressley. Reclaiming the time. In your expert opinion, 
where a person loses consciousness in custody and has been 
separated from her babies for months, how does a Member of the 
U.S. Congress get an answer about her case from ICE?
    Mr. Homan. I would make an urgent phone call, if that's--
your facts are accurate--I would make an urgent phone call to 
Acting Director Matt Albence. ICE spends nearly a half a 
billion dollars on medical care in our facilities. So I'm sure 
all the facts you presented probably aren't the facts.
    Ms. Pressley. Reclaiming my time.
    Ms. Costello, in you view, what does it take to elevate a 
case to ensure a woman who is detained receives medical care?
    Ms. Costello. So obviously you can contact my office and 
issue a complaint through a hotline, you can send a letter to 
us. But as Mr. Homan is suggesting----
    Ms. Pressley. Reclaiming. How does your office inspect 
facilities to ensure the detained individuals have access to 
healthcare specialists and outside care?
    Ms. Costello. We do periodic unannounced inspections of 
both CBP and ICE facilities and compare the situations we 
observe against either the TEDS standards or the PBNDS 
standards for ICE facilities. And when we identify issues of 
grave concern, we report on them, and we notify ICE as part of 
that process.
    Ms. Pressley. And since September 2018, at least seven 
immigrant children have died while or after being in Federal 
immigration custody. Ms. Costello, based on what your office 
has seen and reported on, do you have any concerns that the 
conditions in detention centers at the border could lead to 
more deaths?
    Chairman Cummings. The gentlelady's time has expired, but 
you may answer the question. Go ahead.
    Ms. Costello. Based on what we reported in our management 
alerts and what I testified to today, we are gravely concerned 
about the conditions that we see in the CBP facilities at the 
border. And we are concerned that it could lead to additional 
security incidents and obviously high risk of disease.
    Chairman Cummings. Thank you very much.
    Mr. Homan, I can't sit here as a Member of Congress and 
hear about somebody possibly dying and not do what I can to 
save them, and I think we all feel the same way, on both sides 
of the aisle.
    I would just say--and I'm not knocking you. I'm glad that 
you have agreed that as soon as this hearing is over, to make 
that phone call, because we do want to save every life that we 
possibly can.
    Mr. Homan. If you can provide the information, I'll make 
the phone call.
    Chairman Cummings. Yes, we--her staff will get it to you 
before you get--you know, before we leave.
    Ms. Pressley. Thank you.
    Chairman Cummings. All right. Thank you very much.
    And to you, Ms. Costello, I'm sure that Ms. Pressley will 
be in touch with you, too, and do all that you can to help us 
out. All right?
    Thank you very much. I really appreciate all of it.
    Now we will move on to Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    And, Ms. Costello, in response to media reports, a CBP 
spokesperson said, and I quote, ``It's important to note that 
the allegations of a sexual assault is already under 
investigation by the Department of Homeland Security's Office 
of IG.'' Can you confirm and share any details about the scope 
of this investigation?
    Ms. Costello. Yes, sir. Typically we would never confirm or 
deny the existence of an investigation to protect the integrity 
of the investigation. But since CBP has already confirmed that 
we are investigating that allegation that came out of Yuma, I 
will confirm for you today that we are, but I can't share any 
details with you about our activity.
    Mr. Clay. Has any disciplinary action been taken?
    Ms. Costello. We just opened the case. We just received the 
allegation at the end of June. So we're in the very initial 
stages of that case.
    Mr. Clay. And that's the one with the 15-year-old girl from 
Honduras?
    Ms. Costello. I believe if that's--if it's the allegation 
you're referring to coming out of Yuma.
    Mr. Clay. Let me ask Ms. Mukherjee and Ms. Nagda, have you 
heard of other sexual assaults or harassment of detainees at 
border facilities?
    Ms. Mukherjee. Last month when I was in Clint, children 
reported to me that officers were--had pushed children who 
needed to use the bathroom and prevented them from using the 
toilet when they needed to. Three children reported to me that 
a child had been grabbed by the back of his neck and had been 
pulled out of his cage.
    Other children consistently reported that guards yelled at 
them and that the children were terrified and that they were so 
terrified of the guards that they couldn't even bring 
themselves to ask for more food.
    Now, that said, I also heard about one guard who was kind 
with the children and who gave the little ones an extra 
chocolate pudding when he was able to.
    Mr. Clay. Thank you.
    Ms. Nagda.
    Ms. Nagda. Representative, we start from the position that 
when children talk to us and choose to disclose, that they are 
telling the truth. What we find, though, is that children do 
not tell stories in very linear ways, the ways in which an 
adult who is fully developed might tell that story. And so we 
do hear a lot of stories from children about trauma and 
violence that they have experienced, both in home country and 
as they arrive at the border.
    Mr. Clay. And in these facilities, what impact might this 
have on those children, what kind of psychological effect?
    Ms. Nagda. So I think what is undisputed, Representative, 
is that what is causing families to flee and what is causing 
children to flee is extraordinary violence in their home 
countries. It is very different depending on the country. It is 
different depending on the region. It may be violence 
perpetrated by gangs. It may be domestic violence. Children may 
be coming from countries where there are no resources like we 
might have here in the United States to address situations of 
domestic or community violence.
    But the point is, they have experienced extraordinary 
trauma before they make that migration journey, and then they 
take the migration journey and experience, in many cases, 
additional trauma. And then they arrive at the United States 
and are placed in detention.
    And though I'm not a medical expert, it is my understanding 
that what they're experiencing at that point is something 
referred to as complex trauma, based on a complex trauma 
history.
    That very much compounds what they are experiencing. It can 
limit their development. It can certainly affect their ability 
to tell their stories, which is why the idea of rushing 
children through immigration proceedings or keeping them locked 
up through their court date is really a horrifying one for 
anyone who works with children, who understands that that is 
not an environment in which a child will ever be able to tell 
their story in a way that allows us to understand what has 
happened and make a fair decision in their case.
    Mr. Clay. All of this is extremely disturbing. Now, one of 
the clients stated that the water tasted like chlorine. The 
client disclosed that there were about 30 minors in the 
detention center as well. The other minors started to complain 
about the food and water that was provided to them, and the 
client stated that the minors started protesting about it, and 
because of it, the officers took out all of the sleeping mats. 
Are you familiar with other instances of retaliation like that?
    Ms. Mukherjee. Yes. When we were in Clint, we talked with a 
girl who was in a cell with about 20 other girls, 10 to 20 
other girls who were very young. And the nurse would bring in 
two lice combs so that all the girls could share the lice 
combs, which is exactly the opposite of what you're supposed to 
do when you have lice. And sometime later, a guard came back to 
get those two lice combs back. One of the lice combs was 
missing. In retaliation, as punishment for losing a lice comb, 
every mat and blanket was taken out of that room, and the girls 
had to sleep on the cement floor.
    Mr. Clay. That's nothing but pure evil.
    My time's up, Mr. Chairman. I yield back.
    Chairman Cummings. Thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    It was very important to lay out with some particularity 
what has been happening. I know that we passed a very 
controversial supplemental appropriation, but at least we got 
some money into the pipeline. As controversial as it was, I'll 
tell you one thing: With Democrats in charge of this House, had 
we allowed this session to go--had we gone on recess with no 
more money on the border, then the blame would have been more 
than it already is.
    I think both sides have to take responsibility for what is 
happening on that border, and I certainly think that the Trump 
administration should not get away with blaming the Congress 
entirely on--blaming the problem entirely on Congress. This 
Congress has just taken over, so, obviously, there's a lot of 
blame that could be cast.
    I want to look at the administration's zero tolerance 
policy that forced the separation of 2,800 children, and we're 
still hearing and still living with and led to overcrowding and 
delays that nobody would want to justify. Ms. Mukherjee, was 
that decision to separate children required by law?
    Ms. Mukherjee. Absolutely not. Absolutely not.
    Ms. Norton. So that had to have been made at the 
administration's level?
    Ms. Mukherjee. Yes. And a Federal court has held that it is 
unconstitutional to separate children from their families for 
deterrence purpose. The Fifth Amendment of the United States 
Constitution protects family integrity.
    Ms. Norton. So not only required by law but 
unconstitutional as it happened. Now, it should be clear that 
that policy overloaded the system. One of my friends on the 
other side talked about what happens when the Emergency 
Department of a hospital is overloaded.
    But let me look at alternatives that were available. 
Apparently, this very administration did permit the release of 
immigrant families. The date I'm given is June 2017, and they 
were--had to report back in to ICE, and they had to frequently 
check in, and not until this hearing did I learn that there was 
a 99 percent success rate. I mean, we finally got success on 
something. We didn't all grab it and say: Thank goodness; let's 
go from there.
    Look, I bet we don't have a 99-percent success rate when we 
do bail for criminals in our own criminal justice system.
    Why in the world did that end, Ms. Nagda, and what 
decision, what effect--why did it end? What effect did that 
have on immigrant children, with separating immigrant children 
from their families?
    Ms. Nagda. Thank you, Representative.
    I can't speak to why the program ended. I do know that when 
the program ended, we lost a very effective tool that allowed 
individuals to live in the community together to find 
attorneys. And we do know that when families and children have 
counsel, they appear at their hearings. They participate in 
their cases, and there's a chance----
    Ms. Norton. It's almost like they're afraid not to appear, 
that, you know, they already were afraid at the border, and 
then, if you get here and don't appear and you have the full 
force of law, that you can understand the intimidation to say: 
I better go. I better go there.
    I'm not sure what there was to be afraid of.
    I was interested. I had my staff, I said: Please explain 
this thing called metering to me.
    The DHS inspector system issued a report that found that 
metering may have led to additional border crossings. Now, 
we're trying to cut down on border crossings, but, apparently, 
metering, I found out, what does that mean? Limits the number 
of people who can request asylum at the border. Could you tell 
me how that, Ms. Mukherjee, how did that prove--have the 
opposite effect from what was desired?
    Ms. Mukherjee. I was in Tijuana earlier this year, and I 
witnessed firsthand the problems with the metering system. 
There are hundreds----
    Ms. Norton. Explain--if you could, explain metering. 
Explain the jargon to us. Go ahead.
    Ms. Mukherjee. There are hundreds of asylum seekers who 
want to present themselves lawfully at a port of entry. A port 
of entry is where CBP officers work. They want to go to those 
CBP officers and request asylum. The United States has blocked 
off ports of entry throughout our southern border and limits 
the number of asylum seekers who can enter the country every 
day.
    The first day that I got to Tijuana, zero asylum seekers 
were allowed to cross at that port of entry. In subsequent 
days, I saw the numbers go up to 40 asylum seekers, 60 asylum 
seekers, but that is what is helping to contribute to massive 
problems on the southern side of the U.S. border.
    Ms. Norton. Like unlawful border crossings?
    Ms. Mukherjee. Exactly.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Chairman Cummings. Thank you, Ms. Norton.
    Mr. Garcia, welcome to our committee.
    Mr. Garcia. Thank you so much, Mr. Chairman. I'm very 
grateful for the opportunity to participate as a part of this 
panel asking questions of the witnesses today.
    I'd like to just remind everyone of a couple things, that 
it was the then chief law enforcement of the land, Jeff 
Sessions, who introduced zero tolerance policy, that that was 
the message that the Trump administration wanted to send to the 
world, and it was that announcement that led to the pecking 
order of other functionaries within the administration to 
develop what is laid out in the memo previously mentioned, that 
Mr. Homan and others signed on to. They were responsible for 
operationalizing zero tolerance policy. That is at the root of 
family separation that we have come to know and many of the 
horror stories that we have heard here this afternoon.
    Ms. Costello, the Inspector General's Office that you head 
reported that some of the most atrocious and inhumane 
conditions that our country has ever heard of and witnessed at 
the border have taken place. To your knowledge, Ms. Costello, 
did any children die at the border during the Obama 
Administration?
    Ms. Costello. I don't have any reporting or facts on that, 
sir.
    Mr. Garcia. Thank you. I'm deeply concerned by the findings 
from multiple independent reports that the government failed to 
adequately track separated families, which made it much harder 
to reunify them later on.
    Ms. Maxwell, the January 29 HHS OIG report found, quote, 
that HHS faced significant challenges in identifying separated 
children, including the lack of an existing integrated data 
system to track separated families across HHS and DHS and the 
complexity of determining which children should be considered 
separated. Why would an integrated tracking system have been 
important?
    Ms. Maxwell. It was important to be able to make sure you 
identify the children that were separated and the people and 
the parents that they were separated from. We are concerned 
today, though, with ongoing issues with that data system, in 
particular, the quality of information in that system about 
current children that are being separated from their parents 
and the reasons for those separations.
    Mr. Garcia. What impact did the absence of a tracking 
system have on the reunification of separated children?
    Ms. Maxwell. It meant that the government had to spend 
significant time just identifying who those children were. So, 
in the absence of a system to track the children and their 
families, the government faced an intensive effort in which 
they had to look at 60 data bases across both programs. They 
looked at 12,000 case files and, even then, had to go to the 
grantees to get certifications just to identify the children.
    Mr. Garcia. And produce more delays. These egregious and 
cruel conditions and policies are not accidental. Mr. Homan, 
during your time as Acting ICE Director, deterrence was the 
order of the day for you. The memo bears that out. Exactly what 
you planned for. The Trump administration claimed they had no 
choice but to rip children from their parents because they were 
criminally prosecuting the parents pursuant to zero tolerance 
policy, again, in policies that the administration created and 
that you, Mr. Homan, accepted and forced and championed as 
we've seen. Let me remind everyone that the Trump 
administration tried to ban asylum seeking and started the 
process of metering, which then prevents people from coming 
through legal ports of entry. That exacerbated the crisis. 
People are desperately waiting months just to get in line and 
be granted the inalienable right to due process.
    Mr. Homan, you have said that most immigrants are, quote, 
not criminals other than the criminal act that they do when 
they enter the country illegally. That is why I think we ought 
to revisit decriminalizing desperation, striking sections 1325 
and 1326 of title 8 of the U.S. Code, the statutes that the 
administration has leveraged to separate thousands of children 
from their families.
    Mr. Homan, do you understand that the consequences of 
separation of many children will be lifelong trauma and carried 
across generations? Have we not learned from the internment of 
Japanese Americans, Mr. Homan? I'm a father. Do you have 
children? How can you possibly allow this to happen under your 
watch? Do you not care? Is it because these children don't look 
like children that are around you? I don't get it. Have you 
ever held a deceased child in your arms?
    Mr. Homan. First of all, your comments are disgusting. I've 
served my country.
    Mr. Garcia. I find your comments disgusting as well.
    Mr. Homan. I've served my country 34 years. I served my 
country for 34 years, and yes, I held a five-year-old boy in my 
arms in the back of that tractor-trailer. I knelt down beside 
him and said a prayer for him because I knew what his last 30 
minutes of his life were like, and I had a five-year-old son at 
the time.
    What I've been trying to do in my 34 years serving my 
Nation is to save lives. So, for you sit there and insult my 
integrity and my love for my country and for children, that's 
why this whole thing needs to be fixed, and you're the Member. 
Fix it.
    Mr. Garcia. We agree on that, but I disagree--but I also 
disagree with your characterization of it----
    Chairman Cummings. The gentleman's time has expired. It's 
my time now.
    Mr. Jordan. Mr. Chairman?
    Chairman Cummings. It's my time.
    Mr. Jordan. Well, I just--the gentleman ripped off about 
seven different questions designed to go at the character of 
Mr. Homan, and Mr. Homan should be given a chance to respond. 
It was ridiculous, the way he just rattled them all off and 
wouldn't let him respond to them.
    Chairman Cummings. Let me say this. I understand that, but 
first of all, I'm going to have civility in my hearings, all 
right. No. I have the floor.
    Mr. Jordan. I understand, and I agree with you.
    Chairman Cummings. I'm going to have civility. That's why 
we're banging so that we could hear each person speak. I have 
been very courteous and very kind.
    Now, Mr. Homan, do you have something to say?
    Mr. Homan. No one in this room has seen what I've seen in 
my 34-year career.
    Chairman Cummings. Very well.
    Mr. Homan. No one has experienced what I have experienced. 
I saw many dead bodies coming across this border. You want to 
talk about a memo? This memo is one option to stop death; not 
just about enforcing the law, stop death. If you want to 
legalize illegal immigration, good luck with that because it's 
going to get a hell of a lot worse on that border. If you say, 
``Okay, from now on, there will be no consequence, no 
deterrence, it's not illegal to come to this country 
illegally,'' more families will come; 31 percent of women will 
be raped; more children will die.
    We're a Nation of laws. If you don't like it, sir, change 
it. You're the legislator. I'm the executive branch. And I've 
served my country honorably for 34 years, and I will not sit 
here and have anybody say that I don't care about children 
because they're not the same color as my children.
    Chairman Cummings. Thank you very much. It is my time. I 
have not asked questions yet, and I have quite a few.
    First of all, let me say this to Mr. Homan. I have never, 
and I don't--I'm hoping that--you know, I've listened to all of 
this, and sometimes I think we put issues on top of issues, and 
there are quite a few issues swirling around here.
    I think all of us appreciate our Border Patrol and those 
people that work for our Federal Government, and I want to 
thank you for being here today, and I can kind of understand 
why you could get a little bit upset. I got that.
    But I also say we've got to be--we need to concentrate on, 
and I think it was Ms. Pressley that said it, you know, on the 
living and just not the dead and just not all the problems, but 
we've got to figure out some solutions, and I think you've 
presented some.
    And, Ms. Mukherjee, Mr. Homan five times now has presented 
three things that he thought ought to be done and that could 
resolve this problem. But you said something that is really 
bothering me, and you know, it's going to make me--it makes me 
think. You said it's not necessarily about the money; it's 
about a will. So I've got two pieces of that. I want you to 
talk about what Mr. Homan, a man who has been at his job--over 
30 years, Mr. Homan?
    Mr. Homan. Yes, sir.
    Chairman Cummings. Over 30 years and who is a dedicated 
public servant, his recommendations, and then I want you to 
elaborate a little bit on that issue of it doesn't have to be 
this way, in other words, just because of the money. You go 
ahead. Keep your voice up, please.
    Ms. Mukherjee. Thank you. So, in terms of Mr. Homan's 
recommendations, they will not work. The children and families 
who I represent are refugees. They are fleeing terrible 
violence. They are coming to the United States to seek safety. 
The United States is not the only country in our region that 
has seen an increase in refugees and asylum seekers. All of the 
countries surrounding the Northern Triangle--Guatemala, 
Honduras, and El Salvador--have seen marked increases in the 
number of asylum seekers coming to their countries.
    What we need is not to end the Flores settlement agreement. 
What we need is not to change the Trafficking Victims 
Protection Reauthorization Act. Those are two critical pillars 
that protect immigrant children in Federal custody, that limit 
their time in CBP facilities to 72 hours and require that 
children be released to family members after appropriate 
vetting as quickly as possible.
    Let me offer you five solutions: One, let independent 
doctors into these facilities. Two, let public health experts 
inspect these facilities and give them authorization to order 
remediations. That is what the plaintiff's counsel in the 
Flores case sought just two weeks ago in Federal court. The 
administration's response to those requests was no. The 
administration argued, and I quote, that that would be a 
coercive remedy.
    The third recommendation that I have is to ensure that 
children are not in CBP custody for any longer than 72 hours. 
This administration has refused, has failed to provide 
plaintiffs' counsel in Flores with any data about how long 
children are being held in CBP custody. You have oversight 
powers on this question.
    Fourth, children should not be separated from their 
parents. Immigration officers should not be separating children 
from their mothers, their fathers, their brothers, their 
grandmothers, absent a reason to believe that there is imminent 
risk of harm to the child.
    Now, finally, my fifth recommendation is that we look at 
the data and do what works. When families have access to a 
lawyer, they appear at their immigration court hearings 99 
percent of the time. When families are offered support from a 
social worker through the ICE family case management program, 
they show up for their immigration proceedings 99 percent of 
the time.
    Children and families belong together. They do not belong 
in detention. They should be released, and they should be free. 
And doing that would be far less expensive than what we're 
doing now. The ICE case family management program costs only 
$38 a day per family unit. To detain one person in a family 
detention center, it costs on average $320 per day. To detain a 
child at Homestead like the legally blind child I found there 
in March, it costs the U.S. taxpayers between $750 and $775 a 
day. That child was detained there about 120 days unnecessarily 
when he had a father who was desperate, desperately trying to 
get his son back.
    Chairman Cummings. Let me ask you this, then. So we are 
spending a minimum of $300 a day, minimum, on these children. 
Is that what you're telling me?
    Ms. Mukherjee. That is the rate that we are paying for one 
person a day at the family detention centers.
    Chairman Cummings. And if any of us were given $300 a day 
to take care of our child, that's quite a bit of money, and you 
could do all kinds of things. Am I right?
    Ms. Mukherjee. That's right.
    Chairman Cummings. All right. Let me go on.
    Ms. Costello, I want to ask you about DHS' inspector 
general's inspections of several immigration detention centers 
on the southern border. These reports were shocking to the 
conscience, and I think they will shock any American who takes 
the time to read them or even to look at the pictures.
    In May 2019, you issued a report on, quote, dangerous 
overcrowding and prolonged detention, quote, at a border 
facility in El Paso, Texas. I understand that your team saw 900 
detainees in an facility intended for only about 125. Is that 
right?
    Ms. Costello. Yes, sir.
    Chairman Cummings. The IG report found that some detained 
immigrants, quote, had been held in standing-room-only 
conditions for days or weeks, end of quote. And the report goes 
on to say, quote, with limited access to showers and clean 
clothing, detainees were wearing soiled clothing for days or 
weeks. The report concludes that these conditions present, 
quote, an immediate risk to the health and safety, not just of 
the detainees but also the DHS agents and officers. Ms. 
Costello, in all your years in government service, had you ever 
seen any conditions like this?
    Ms. Costello. No, I have not, but more importantly, the 
inspection team that did the work on the ground for me has not, 
and they've been doing this for years. The reason we issued 
those management alerts is because they had never seen anything 
like what they saw in both the El Paso center we reported on 
and the facilities in the Rio Grande valley.
    Chairman Cummings. But this is not an isolated incident. 
Just last week, your office issued another report describing, 
quote, dangerous overcrowding and prolonged detention, end of 
quote, at five different border facilities in Texas. Together, 
these facilities held over 2,500 young people. You reported 
that nearly one-third of these children had been held longer 
than the 72-hour limit. Ms. Costello, what were conditions like 
for the children in these facilities?
    Ms. Costello. It was similar to the situation in El Paso 
for the children. The overcrowding was dangerous, significant. 
Again, my inspectors described the situation like they had 
never seen before. That is the picture.
    Chairman Cummings. That is the picture?
    Ms. Costello. Yes.
    Chairman Cummings. Can you tell us what is in that picture, 
please?
    Ms. Costello. It is an overcrowded facility, you know. It 
is families in a facility in a space that they can't possibly 
fit in. I think the caption underneath may describe--does it 
describe--no. I don't know that it describes the number.
    Chairman Cummings. No. So you mean people had to be like 
that pretty much 24/7?
    Ms. Costello. Yes. Although to clarify, they visited on the 
days that they visited, so, you know, that's their observation 
from that snapshot in time. But the understanding is that folks 
have been in that position for a while.
    Chairman Cummings. So, when you went in, you all were--the 
Inspector General's Office was allowed to take the photo?
    Ms. Costello. Yes. You know, that's part of how we do our 
work. It's how we collect our evidence. It, frankly, would 
never occur to me, sir, not to have our team go in and take 
pictures.
    Chairman Cummings. Thank you very much. How long were these 
children kept in these conditions?
    Ms. Costello. In that facility?
    Chairman Cummings. Yes.
    Ms. Costello. In the Rio Grande valley, the information 
that we have is that children were--31 percent of them were 
there for more than 72 hours; 165 were there longer than a 
week. So that's children. With regard to unaccompanied alien 
children, we had 50 under seven, under the age of seven who 
were there for over two weeks.
    Chairman Cummings. Now, give me that picture. Let me ask 
you this. I just note--I'm just curious. Where are the toilet 
facilities in this? Do you know?
    Ms. Costello. No. I don't actually know.
    Chairman Cummings. Okay.
    Ms. Costello. But children are supposed to have access to 
toilets in the holding rooms.
    Chairman Cummings. Ms. Mukherjee, do you have a comment?
    Ms. Mukherjee. Yes. So, in facilities like this, and this 
is knowledge based on interviewing hundreds of immigrant 
children and families, the toilets are open. There is no 
privacy to use the toilet. Children try to use those foil 
wrappers that you see to cover themselves when they're 
toileting, and this leads to problems.
    In Clint, we talked to girls who were so embarrassed that 
boys could see them while they were using the toilet. We talked 
to a boy who tried not to eat because he was so embarrassed to 
use the toilet. Every day, these children are being degraded by 
having no access to any privacy when they're using the toilet.
    Chairman Cummings. Yes, Ms. Costello.
    Ms. Costello. I want to clarify. A member of my team was 
able to clarify for me. You can't tell from the picture----
    Chairman Cummings. Yes.
    Ms. Costello [continuing]. but apparently the toilet is in 
back of that wall.
    Chairman Cummings. In back of that right there?
    Ms. Costello. Yes. Yes, sir. You can't see that, obviously, 
clearly from the picture, but apparently that's where it's 
located.
    Chairman Cummings. Okay. One officer interviewed described 
the security situation as a, quote, ticking time bomb. Ms. 
Costello, CBP has detailed standards it is required to follow 
when detaining these children. Based on your inspections, do 
you believe the CBP is meeting those standards?
    Ms. Costello. Not for every one of the standards, sir. I do 
want to emphasize that when we visited the facilities, they 
were well stocked, as I said in my prepared statement, with 
diapers, juice, snacks.
    Chairman Cummings. Did they know you were coming?
    Ms. Costello. No.
    Chairman Cummings. Okay.
    Ms. Costello. All of our inspection are unannounced----
    Chairman Cummings. Okay.
    Ms. Costello [continuing]. and that's really only the way 
to do it. What they're not meeting standards are obviously the 
crowding, the prolonged detention, some of the hygiene that the 
children are supposed to have, but it would be impossible to do 
so in the conditions that we saw there. It's shocking.
    Chairman Cummings. Does it shock you that we're spending a 
minimum of $300 per day?
    Ms. Costello. I don't have information that validates that 
particular number.
    Chairman Cummings. That's not what I asked you.
    Ms. Costello. I know, sir.
    Chairman Cummings. That's not what I asked you. I said, 
would it shock you to know that we were spending a minimum of 
$300 a day for folks to live in a facility like that?
    Ms. Costello. If that were an accurate number, sir, yes.
    Mr. Homan. Sir, can I answer that question for you?
    Chairman Cummings. Sure.
    Mr. Homan. $300 a day is for family residential centers, 
and the reason that price is $300 a day is because we have to 
provide child psychologists, pediatricians, educational 
programs. The pictures you are being shown are Border Patrol 
facilities. There's not a cost per day there. The $300 per day, 
that's an ICE facility, a different facility.
    Chairman Cummings. Well, we're spending something, though, 
right, wherever the picture is. We're spending some money. 
They're not coming for free.
    Mr. Homan. I don't know what the Border Patrol facilities 
cost. I'm just--the $300 figure is an ICE facility.
    Chairman Cummings. I got you. I understand.
    Did you have a comment on that, Ms. Mukherjee?
    Ms. Mukherjee. I wanted to agree with Mr. Homan. That's 
correct.
    Chairman Cummings. Wow. That's--thank you very much.
    So, now, Ms. Costello, you've testified that DHS, quote, 
has not developed a long-term plan to address the issues within 
detention centers along the southern border, end of quote, and 
that the steps DHS has taken to alleviate overcrowding 
continue, these are your words, to fall short. Is that 
accurate?
    Ms. Costello. You know, I think the efforts to put tents in 
place and try to create more space to illuminate the 
overcrowding are first steps, but as I did testify earlier, 
it's about moving children and families and adults out of these 
facilities to begin with. The CBP facilities were never 
intended to house folks for--as many folks on the panel have 
testified today for longer than 72 hours. We are currently 
engaged in efforts to try to identify why they're staying there 
for longer than 72 hours and to offer some recommendations for 
things that we can do about that.
    Chairman Cummings. How soon do you expect those 
recommendations to be made?
    Ms. Costello. We're just getting involved in that work.
    Chairman Cummings. That's not what I asked you.
    Ms. Costello. I know.
    Chairman Cummings. Okay.
    Ms. Costello. But you know if I promise you a date and then 
I don't----
    Chairman Cummings. You know I'm going to have you up in 
here.
    Ms. Costello. I know you're going to ask me again, sir.
    Chairman Cummings. Yes. I certainly will.
    Ms. Costello. It will take some time for us to get there. I 
think we have several lines of work that we're engaged in on 
all of these issues that have been discussed today. Some of 
them will be ready this fall. That one, probably not yet.
    Chairman Cummings. You know, I want you to understand that 
we--this is very unusual for us to be here this late on a 
Friday, on a getaway day.
    Ms. Costello. I know, sir.
    Chairman Cummings. But it's urgent for us. It's a life-and-
death situation, and that's why I'm kind of pressing you a 
little bit here.
    Ms. Costello. Yes.
    Chairman Cummings. I just want--like somebody said on the 
other side, we're looking for solutions. And sometimes to get 
to solutions, you have to have accountability, and you have to 
have pressure. So we want to see something get done as fast as 
we can.
    Yes, ma'am.
    Ms. Mukherjee. I want to add to the record that CBP has 
dealt with larger number of apprehensions in the past without 
causing and creating a health and safety crisis. So, if 
apprehensions continue at the rate that they've been in 2019 
without the drop that we saw last month, without the 28-percent 
drop from June 2019, we'll see no more than 67 percent of the 
number of apprehensions that we saw in 1986, in 1998, 1999, and 
in 2000.
    And the Flores settlement agreement was reached in 1997. It 
requires the government to plan for an influx. Two weeks ago, a 
Federal court recognized that the government has had 22 years 
to plan for an influx, and the court ordered the government to 
do so forthwith. So I agree with you, Chairman, about the 
urgency of the situation and that the administration needs to 
act now to care for these children and release them promptly.
    Chairman Cummings. Ms. Costello, you're going to get back 
to me, right, let me know when you kind of realize--I mean, 
believe you can get that done?
    Ms. Costello. Of course, we will, sir.
    Chairman Cummings. I really would appreciate that.
    Do you have anything else because I'm going to let each one 
of them ask one question. Okay. Fine. Yes.
    We're going to let--you all have been so kind, Members, to 
stay here, and I just want to check to see if you all had a 
question or two. We will go to Mr. Raskin and then come back 
down this way.
    Mr. Raskin. Mr. Chairman, thank you very much. And I'm very 
proud to be a member of your committee with all the 
extraordinary work we did this week to open America's eyes to 
what's going on in the name of every American citizen at the 
border.
    Ms. Mukherjee, I wanted to ask you, because you've been 
doing this kind of work, as I understand it, since you were a 
law student in a clinical program in 2003, so you have some 
historical sense of this looking at it as a human rights 
advocate and a lawyer from that perspective. Can you compare 
the conditions that you've seen at immigration facilities over 
the last year to what you saw before this? Because the truth 
is, I think, I'm like most Americans, who are not in the 
immigration law field, and I haven't paid close attention to 
this, but is this what it's always been like, or are, as we 
have seen, a degradation and deterioration of the conditions? 
How do we understand this in historical context?
    Ms. Mukherjee. I have never seen anything like this. I have 
been involved in suing three administrations to try and seek 
better protections for immigrant children in detention, but 
never before have I seen what I saw, heard, and smelled as what 
I did in Clint last month. Never before have we learned of 700 
children being detained in a facility designed for 100 adults. 
Never before have I met with children detained in CBP custody 
for even a week, much less several weeks. Never before has my 
team of lawyers had to directly intervene to get babies 
admitted to the hospital.
    The week of June 10th, my colleagues, a pediatrician and 
several lawyers, did interviews in McAllen, Texas, at the 
Ursula facility, and they identified five babies who were so 
sick that they needed to be admitted to the neonative intensive 
care unit of the local hospital.
    For nearly a decade, as the committee knows, there were no 
reported deaths of children in Federal immigration custody. In 
just the past year, seven children have died in custody or just 
after being released. This is different than what I've ever 
seen before.
    Chairman Cummings. Thank you very much.
    Mr. Raskin. Thank you, Mr. Chairman.
    Chairman Cummings. Mr. Comer.
    Mr. Comer. Thank you, Mr. Chairman.
    Mr. Homan, you're clearly the expert. You're clearly the 
person that's performed the sacrifice to try to defend the 
border, to try to protect Americans, to try to save lives from 
Americans and others who are here legally or illegally or 
however they're here. Do you have any closings remarks because 
I know that you've been cutoff a lot today. I'm very sorry that 
a member on the other side questioned your integrity because, 
clearly, you are credible. You have served this country with 
honor, and I just wanted to give you an opportunity to have 
some closings remarks or touch on anything that's been 
mentioned in the last 30 minutes.
    Mr. Homan. I will just say this: I've served my country for 
34 years, and there was a comment made earlier that I--in my 
LinkedIn, that I oversaw 300-and-some thousand. Actually, in 
the four years of my leadership, we oversaw a million illegal 
aliens being removed and be deported. And I got a Presidential 
Rank Award from President Obama for distinguished service. I've 
worked for six Presidents, and I respect each and every one of 
them because they're the President of the United States, but my 
job as a career law enforcement officer is to execute a mission 
within the framework provided me, the framework being money, 
resources, and policies. I executed the mission under President 
Obama in a leadership role at ICE, and I've executed the 
mission under President Trump for a year and a half. I did my 
job. And a lot of this back and forth today--and I'll leave it 
with this. This situation at the border is the failure of 
Congress to act. These children are in bad conditions. My heart 
breaks for them. They shouldn't be in--Border Patrol jails 
weren't built for a vulnerable population like women and 
children. So give these people the--HHS--the money they need to 
get these people to the facility that is built and planned for 
them. No one wants to see that, but we need to stop the 
vilification of the men and women who are doing the best they 
can under very difficult circumstances. I was a Border Patrol 
agent. I know many Border Patrol agents, and they've shed many 
a tear of what's going on. I hope Congress will work with this 
administration and try to fix it. I do.
    I think we're a country of laws. We need to enforce the 
law. And for anybody in Congress to say, ``Well, ignore the law 
because we'd rather not fix it,'' is just the wrong way to go. 
I ask the Border Patrol and ICE to do their job. I ask Congress 
to do theirs.
    Mr. Comer. Two things, and I'll yield back, Mr. Chairman. 
First of all, something that's good to point out. These 
facilities, correct me if I'm wrong, were not built to house 
children.
    Mr. Homan. They're jails.
    Mr. Comer. No. 2, you have given three solutions that I 
agree 100 percent would begin to solve the problem. And I can 
assure you that this side of the aisle is going to do 
everything we can to work with the Trump administration to 
implement that. It takes 218 votes to pass legislation and move 
to the Senate. We have about 198. And I hope that we can work 
in a bipartisan way because to get to a solution in this 
Congress, it's going to take bipartisan support.
    With that, Mr. Chairman, I yield back.
    Chairman Cummings. Thank you very much.
    Ms. Pressley.
    Ms. Pressley. Thank you, Mr. Chairman.
    Mr. Homan, I wanted to--just for my own edification, I was 
wondering if you could answer a couple of questions that I was 
unable to get answered during our visit at CBP. Are you aware 
of exactly what is the temperature that the--where families are 
being detained should be at?
    And then, secondarily, what does the heat index need to be 
outside for people to be moved from tents inside?
    Mr. Homan. I don't know the answer to that question, ma'am. 
I can say that the biggest complaint you hear from folks is 
that the Border Patrol cells many times are very cold. They 
call them ice boxes. And the reason for that is because many of 
these people from Central America don't experience air 
conditioning on a 24/7 basis. But I don't know if they have--to 
be honest with you, I don't know if they have a limit on where 
it should be at. I don't. I don't have an answer to that 
question.
    Ms. Pressley. Okay. Is there anyone on the panel that could 
speak to a recommended temperature?
    Ms. Nagda. Representative, I don't have those numbers, but 
I know that advocacy groups have pulled that information in the 
past, and I'd be happy to share it with you. They've prepared 
reports in terms of what they have been told are the standards 
and what ought to be the standards.
    Ms. Pressley. Okay. Does that include anything so far as a 
lavatory and a toilet because I would be curious, you know. 
Again, we make this about funding. If you send equipment some 
place and more goods, and you send one toilet to serve 500 
people, that is not sanitary. That is a public health issue. So 
I would be curious to know for my own edification what is 
recommended.
    Ms. Nagda. I don't think we've ever had those 
recommendations because we've never been in a circumstance 
where we had to say how many toilets are needed for children--
--
    Ms. Pressley. Right.
    Ms. Nagda [continuing]. is privacy required. Things have 
never been this bad. So those reports don't exist, but I 
suspect they are on the way.
    Ms. Pressley. Okay. All right. And then Mr. Homan, I just 
wanted to thank you for your commitment on the record to 
partner with me to do everything we can to save this Angolan 
detainee Mariana. My chief of staff, Sarah Groh, is in the 
back. She'll approach you as this hearing adjourns so that we 
can get on the phone right away. Thank you.
    Chairman Cummings. Thank you.
    Ms. Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman.
    When we were at these facilities, one of the things that I 
had noticed was that there were these tents in the back with--I 
mean, they looked like cages, and I know that a lot of the 
migrants, they call the cold rooms ``hieleras,'' and they call 
these pens ``perreras,'' dog pounds. There were a lot of them, 
but they were all empty when I arrived.
    And we had heard reports that there were hundreds of people 
in the El Paso border station. And so I asked some of the 
migrants: Is it true that there were people here, or is there 
anyone else here?
    And they said: No. There's no one else here.
    And I said: Were there people here? We had been hearing 
that there were hundreds of people being kept in this facility.
    And they said: Yes. They took them away.
    And I had heard from these migrants but in other--from 
other facilities we had visited, a kind of a welcome station 
for families, and we had heard similar things from the pastor 
there as well, that CBP changes up facilities when they know--
when they have advance notice if a congressional delegation is 
coming. I'm curious if you all have heard anything about this 
or heard any accounts to corroborate what they have said.
    Ms. Mukherjee. What I can say is that the government had 3 
weeks' notice that we were coming to the El Paso sector and 
that the officers on the ground at the Clint facility knew days 
in advance that we were coming. And what we saw was so 
appalling that we had to share it with America. We had no other 
choice, and very quickly thereafter, we learned that children 
were being moved out of the facility in the hundreds and that 
CBP was releasing thousands of children.
    Chairman Cummings. Thank you very much.
    I'm going to just make one closing statement, but I have 
two or three questions, and we'll be finished in the next five 
minutes.
    Ms. Costello, I was shocked to read the reports about the 
racist and sexist posts on a Secret Service Facebook page used 
by current and former Border Patrol agents. Can you confirm 
today whether your office is investigating this issue? And 
before you answer, I understand that you have certain 
limitations. I'm just asking that question. Go ahead.
    Ms. Costello. I can answer it in this case.
    Chairman Cummings. Okay.
    Ms. Costello. But if you'll just allow me to elaborate.
    Chairman Cummings. Go ahead.
    Ms. Costello. Those kinds of complaints, we do get them, 
and because they relate to violations of the behavior and code 
of conduct, usually the CBP Office of Professional 
Responsibility handles those because we get so many complaints 
that we want our criminal investigators to focus on corruption 
and crime and very high-level administrative misconduct. So the 
individual behaviors, we still feel those are appropriate for 
CBP's Office of Professional Responsibility.
    However, given that there were allegations that leadership 
knew that they used this Facebook page to get information, that 
they didn't take action earlier when they knew, we do feel that 
that's an appropriate issue for my office to look into, but it 
won't be a criminal investigation, sir. It will be done out of 
our Office of Special Reviews, which is the same office that 
did the management alerts.
    Chairman Cummings. I understand.
    As we conclude, you know, I've sat here, and I've listened 
to everybody, even you in your testimony. I was looking at it. 
I was in a meeting but watching it. You, Mr. Homan, I heard 
your testimony. I heard everybody's testimony. And as I sat 
listening to all of what has happened today, I go back to what 
I said a little bit earlier. I think we really have got to 
concentrate on these children who are trying and their parents 
are trying to simply live a better life and many of them 
escaping from just pure horror stories. And, you know, when you 
use, Ms. Costello, words like ``imminent danger''--I forget who 
used it--but to me, that's life and death stuff. That's--you 
know, I immediately go to a whole 'nother gear because it's 
about saving somebody's life, saving a lot of people's lives.
    And then there's another piece to this, and I think what 
happens, Mr. Homan, a lot of--I listened to your testimony and 
what you--particularly the last statements that you made in 
answer to Mr. Comer's giving you that opportunity. You know, 
you have got a good point. You're trying to carry out the law, 
and if it's anything is to happen, we need to do it. But in the 
meantime--it's the meantime that I'm worried about--what 
happens?
    I tell my children that whenever you go into a storm, you 
have to respect the storm. In other words, you don't go into an 
icy condition speeding. You have to respect the storm. In other 
words, we have to--right now, I think we've got to go the extra 
mile to try to make sure we do the things immediately to bring 
comfort to these children.
    We had a hearing yesterday where we talked about the 
effects of trauma on children. And I'm telling you, it was 
chilling, and I could not help when I was listening to our 
witnesses but think about these children. You heard me say at 
the beginning of this hearing our children are the living 
messengers we send to a future we will never see. The question 
is, how do we send them? How are we sending them? I mean, you 
think about a child walking around with a dirty diaper, no 
toothpaste, torn away from their parents, smelling bad.
    I mean, there's some kind of way--and I'm not blaming you, 
Mr. Homan, and I don't think anybody here is doing that. What 
we're saying is we too want to find solutions to resolve this 
issue. These children will grow up when we're dead. We'll be 
dancing with the angels. And what kind of message will we have 
sent? And I think that's the reason why we have so much 
interest in these hearings. Our members on both sides are 
concerned about, who is this young man, this little baby, who 
is now 4 years old, going to grow into? What's he going to be 
like?
    And it is our duty. This moment is our watch. We are on 
watch right now, and what we do now, we can put our hand prints 
and our fingerprints on their futures and on their destinies. 
And so part of this hearing is about trying to change the 
trajectory of their destinies, trying to change the trajectory 
of their destinies. And so help me God, I'm going to do 
everything in our power and work with our entire committee to 
try to resolve these issues as fast as we possibly can.
    Without objection, the following items shall be entered 
into the hearing record, a letter from the Anti-Defamation 
League, a recommendation from Kids in Need of Defense, a 
statement from the Church World Service, a statement from the 
Center for Victims of Torture, a letter from the organization 
of Zero to Three.
    Chairman Cummings. These documents set forth 
recommendations to stop separating the children from their 
families and unnecessary detentions and ensure we provide 
humane treatment to everyone in government custody.
    Again, I would like to thank our witnesses for testifying 
today. It's been a long day. And I want to thank all of you, 
all of you, all the Members, who most of you all would have 
been on a plane by now going to where the places you've got to 
go, but you felt that it was so important that you be here, and 
I appreciate that.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response. I ask our witnesses to please 
respond as promptly as possible and as fast as you possibly 
can.
    Again, I want to thank all of you, and this hearing is 
adjourned.
    [Whereupon, at 4:39 p.m., the committee was adjourned.]

                                [all]
</pre></body></html>
